<html>
<title> - USING THE WEB AS A WEAPON: THE INTERNET AS A TOOL FOR VIOLENT RADICALIZATION AND HOMEGROWN TERRORISM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



     USING THE WEB AS A WEAPON: THE INTERNET AS A TOOL FOR VIOLENT 
                 RADICALIZATION AND HOMEGROWN TERRORISM

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
                        INFORMATION SHARING, AND
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2007

                               __________

                           Serial No. 110-83

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
48-978 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     JANE HARMAN, California, Chair

NORMAN D. DICKS, Washington          DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER P. CARNEY, Pennsylvania  CHARLES W. DENT, Pennsylvania
ED PERLMUTTER, Colorado              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (ii)

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington, and Ranking Member, Subcommittee 
  on Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     4
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania......................................    41

                               Witnesses

Ms. Parry Aftab, Internet Attorney:
  Oral Statement.................................................    29
  Prepared Statement.............................................    30
Dr. Bruce Hoffman, Professor, Georgetown University:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Rita Katz, Director, SITE Institute:
  Oral Statement.................................................    14
  Preapred Statement.............................................    15
Mr. Mark Weitzman, Director, Task Force Against Hate, Simon 
  Wiesenthal Center:
  Oral Statement.................................................    34
  Prepared Statement.............................................    37

 
                     USING THE WEB AS A WEAPON: THE
                     INTERNET AS A TOOL FOR VIOLENT
                 RADICALIZATION AND HOMEGROWN TERRORISM

                              ----------                              


                       Tuesday, November 6, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Harman, Dicks, Carney, Langevin, 
Reichert and Dent.
    Ms. Harman. Good afternoon. Our hearing, Using the Web As a 
Weapon: The Internet as a Tool For Violent Radicalization and 
Homegrown Terrorism, will come to order.
    Last month, the New York Times introduced the world to 
Samir Khan, a 21-year-old American living at his parents' house 
in North Carolina. Khan has been operating one of the most 
active English language Web sites on the planet, one that 
promotes a radicalized view of Islam and violence against 
Americans here at home. It hosts hundreds of links to videos 
showing American soldiers being killed by Iraqi insurgents, 
including a file called, ``The United States of Losers,'' which 
showcases a recent news broadcast about a fire fight in 
Afghanistan.
    Kahn's commentary on the site reads, ``You can even see an 
American soldier hiding during the ambush like a baby. 
AllahuAkbar! AllahuAkbar!''
    Kahn's is not an isolated case. This past August, Ahmed 
Mohammed and Youssef Megahed, 21-year-old University of South 
Florida engineering students, were stopped for speeding in 
Goose Creek, South Carolina. The stop resulted in a two count 
Federal indictment on terrorism related charges. When 
questioned by Federal agents, Mohammed admitted to using the 
Internet to post a 12-minute YouTube video demonstrating in 
Arabic how to turn a toy boat into a bomb. He told the FBI that 
he made the video to teach, ``those persons in Arabic countries 
to defend themselves against the infidels invading their 
country.''
    And in March of this year, Hassan Abujihaad, AKA Paul Hall, 
was arrested in Phoenix, Arizona, on charges that he supported 
terrorism by disclosing secret information about the location 
of Navy ships and the best ways to attack them. The 
investigation of Abujihaad, a former U.S. Navy sailor, began 
with an Internet service provider in Connecticut. Abujihaad is 
believed to have exchanged e-mails and information with a 
British computer specialist arrested in Great Britain in 2004 
for running terror financing Web sites.
    In September of last year, Adam Gadahn, the son of Jewish 
parents from Southern California who himself converted to Islam 
and went on to become Osama bin Laden's spokesman, released a 
45 minute video on the Internet called, ``An Invitation to 
Islam.'' In that video, Gadahn talks about al-Qa'ida's 
ideology, rationale and motivations, encouraging Americans to 
sympathize with the group.
    There can be no doubt, the Internet is increasingly being 
used as a tool to teach and radicalize Americans and legal 
residents. These people no longer need to travel to foreign 
countries or isolated backwoods compounds to become 
indoctrinated by extremists and learn how to kill neighbors in 
our communities.
    On the contrary, the Internet allows them to share violent 
goals and plot from the comfort of their living rooms, a 
problem that the President's own recently released National 
Strategy for Homeland Security tells us is here and is not 
going away.
    How we address violent radicalization while respecting the 
Constitution in the process is not easy. There is no magic pill 
or rule book or law that will fix this. But there are steps to 
take. Representative Reichert and I are co-authors of H.R. 
1955, the Violent Radicalization and Homegrown Terrorism 
Prevention Act of 2007, which passed the House 404-6, a near 
miracle, several weeks ago.
    The centerpiece of H.R. 1955 is the creation of a national 
commission to study violent radicalization, to determine the 
best way forward and to make concrete proposals for action. At 
6-month intervals over 18 months, this commission would drill 
down on the issue and propose to both Congress and the 
Secretary of Homeland Security initiatives to intercede before 
radicalized individuals turn violent.
    We are not afraid of where the facts will take us, but no 
one on the Hill or elsewhere should think we already have a 
complete understanding of how someone with radical beliefs, 
beliefs which are protected by our Constitution, becomes a 
violent killer, actions which are not protected and, in fact, 
which are condemned by our laws and which are felonies.
    Many in the Senate likewise support our call for a national 
commission. My colleague and friend, Susan Collins of Maine, 
recently introduced companion legislation that would make the 
commission a reality. I look forward to working with the Senate 
to get a bill to the President's desk before the end of this 
session.
    I welcome our witnesses today who will tell us about the 
Internet and how it is a tool of violent radicalization and how 
it is abused--I would say abused--by those who would call 
others to commit violent acts. I believe our witnesses' remarks 
will be a valuable starting point for the national commission's 
work. I appreciate the fact that you have come here today and 
now would yield 5 minutes to the ranking member for any opening 
remarks he wishes to make.
    Mr. Reichert. Thank you, Madam Chair. And I also thank you 
for holding this hearing.
    As I was listening to your opening statement, I, too, have 
an opening statement. But I am a storyteller, and I would like 
to just think about, part of our statement here today is how 
much the world has changed with the Internet giving us global 
access and communications, really, for that matter. And one of 
the stories that I like to share even just going not too far 
back in history, into the late 1990s, when I was the sheriff 
and we had a problem with WTO in Seattle. And part of my 
response to that was to be on the streets with the troops 
downtown during that disturbance.
    Shortly thereafter, a Tacoma police officer took a trip to 
India. And while he was in the high mountains of India 
retracing his family roots, he came across a village where his 
family began years and years and years before. And as he was 
speaking with these high mountain people in this small 
community, he told them that he was from Seattle, Washington, 
the United States of America, in Seattle. And they got very 
excited and wide-eyed. And he also told them that he was a 
police officer from Tacoma, and they really got excited. ``Do 
you work for the great sheriff of Seattle?'' And he was very 
surprised and said, ``How in the world would you know about the 
sheriff in Seattle?''
    Well, during WTO, I ran down the street and I chased a 
crook that was ripping off a Radio Shack store in Seattle. And 
they happened to have one TV and one satellite dish, and so the 
village was surrounded around this TV watching WTO in Seattle 
and the one sheriff running down the street chasing after a 
crook. So after that little story and after he told a little 
white lie and said that he did work for the great sheriff of 
Seattle, the red carpet was rolled out for him.
    But what an example of how small this world has become. And 
when you talk about the way that we communicate now and how 
fast information moves, and now we are moving not only from 
satellite TV into a small village in India, but we are talking 
about the Internet and how you can begin to change minds.
    The Internet is good in some respects. But, unfortunately, 
the Internet also facilitates terrorist communications, 
provides an additional venue for terrorists to spread their 
hateful and murderous propaganda. The Internet communications 
established by these terrorists and would-be terrorists serves 
as a virtual society where otherwise alienated and isolated 
individuals can meet for training, reinforcement and social 
networking. Powerful, commercially available encryption and 
communication tools make these societies hard to penetrate.
    A recent report from George Washington University and the 
University of Virginia found that Internet has made a range of 
terrorist operational activities cheaper, faster, and more 
secure, including communications, propaganda, radicalization 
and recruitment. The New York City Police Department found that 
the Internet is the driver and enabler for the process of 
radicalization. Similarly, the United States Institute of Peace 
noted that, ``The great virtues of the Internet, ease of 
access, lack of regulation, vast potential audiences and fast 
flow of information, among others, have been turned to the 
advantage of groups committed to terrorizing our communities to 
achieve their goals.''
    The problem of the Internet radicalization is fairly well 
documented by these and other studies. But the question 
remains: What can be done about it? What can we do now? How can 
we protect ourselves without harming the rights of law-abiding 
citizens and without doing damage to the free flow of 
information on the Internet that is now vital to our economy 
and this information age?
    This subcommittee has produced legislation by myself and 
Chairwoman Harman, which she mentioned, establishing a 
commission on radicalization to help establish a national 
strategy to combat terrorism. While this certainly is a good 
first step, there may be additional interim steps that we can 
take in the meantime. According to the Middle East Media 
Research Institute, most Radical Islamist Web sites are hosted 
on servers based in the West, taking advantage of the very same 
freedoms they wish to destroy.
    It is also true, however, that many of the Western Internet 
service providers hosting these sites may be unaware that they 
are facilitating terrorism. So it seems to me that maybe a 
first step to any Internet counter-radicalization strategy 
would be to ask responsible Internet service providers to 
police themselves and voluntarily shut down sites that sponsor 
terrorist propaganda.
    We hope to hear from our witnesses today about their ideas 
and how we can counter Internet radicalization, reduce its 
spread and begin to win the war of ideas against those who seek 
to destroy our culture and our freedoms.
    Ms. Harman. I thank the ranking member, and now welcome the 
chairman of the full committee, Mr. Thompson of Mississippi, 
and yield to him for an opening statement.
    Chairman Thompson. Thank you very much, Madam Chairman. And 
I compliment you for having this hearing. As you know, based on 
the work we have done in the last couple of weeks, it appears 
that we will do more in this area.
    Today we turn to a very serious concern, the use of the 
Internet to promote extremist violence. The Internet has 
drastically increased the ability of terrorists to reach a 
global audience, an audience they want to indoctrinate. And the 
terrorists are doing so with impunity.
    Unlike other pathways into the country, the Internet is not 
restricted by border enforcement or protected by TSA, and its 
users can remain anonymous. It allows users to connect with 
like-minded individuals, resulting in a sense of closeness and 
community that transcends race, gender, age and physical 
location. Indeed, the Internet provides users with a sense of 
belonging, a perfect vehicle for al-Qa'ida and others to 
recruit people on the fringes, and it is happening.
    Daniel Sonier, a 22-year-old troubled Canadian, stated, 
``The first time I saw an al-Qa'ida video on the Internet, I 
was ready to go. I wanted to kill the disbelievers.'' According 
to one friend, Sonier became so extreme, he once said he would 
go to war against his own father. Friends started calling him 
Osama bin Daniel.
    What is so troubling about Mr. Sonier is that, by all 
accounts, he was an average 22-year-old until he was 
indoctrinated by extremists that found him on the Internet.
    Mr. Sonier lives in Canada, but Samir Khan, a 21-year-old 
old American, operates an extremist Web site out of the comfort 
of his parents' home in North Carolina. It is one of the most 
frequently visited English language Web sites in the world that 
preaches a radicalized view of Islam and promotes violence.
    What makes the means of communication so appealing to 
terrorist organizations is that new converts don't need a plane 
ticket to arrange a meeting. Instead, videos, blogs, chat rooms 
and message boards expose new recruits to a romanticized view 
of Jihad with a few keyboard strokes.
    I want to congratulate the Chair and ranking member of this 
subcommittee for authorizing the bill that overwhelmingly 
passed the House last month. It forces us to take this threat 
and come up with strategies to counter it that not only protect 
our people but also their constitutional rights.
    I look forward to this hearing today and its testimony. I 
expect it will be a useful starting point for us to develop 
strategies to thwart homegrown terrorism. Welcome.
    Ms. Harman. Thank you, Mr. Chairman. Other members of the 
subcommittee are reminded that, under committee rules, opening 
statements may be submitted for the record.
    I welcome our panel of witnesses. Our first witness, doctor 
Bruce Hoffman, is well known to me and has advised me over the 
years on various issues involving terrorism. In fact, he has 
been studying terrorism himself for 30 years.
    That should have been enough time to solve this problem, 
Bruce.
    He is currently a tenured professor in the securities 
studies program at Georgetown University's Edmund A. Walsh 
School of Foreign Service. He previously held the corporate 
chair in counterterrorism and counterinsurgency at the RAND 
Corporation, which is where I met him, and was also director of 
RAND's Washington, D.C., office. He holds degrees in 
government, history and international relations, and received 
his doctorate from Oxford. Dr. Hoffman is the author of the 
book, ``Inside Terrorism.''
    Our second witness, Rita Katz, is the director of the 
Search for International Terrorist Entities Institute, or SITE, 
for short. She has studied, tracked, and analyzed international 
terrorists and their financial operations for many years. Since 
well before September 11th, she has personally briefed 
government officials, including former terrorism czar Richard 
Clarke and his staff in the White House, as well as 
investigators with the Department of Justice, Department of 
Treasury, and Department of Homeland Security on the financing 
and recruitment of networks of the terrorist movement. She is 
the author of Terrorist Hunter--I am outing her, because the 
author of this book is called Anonymous--``Terrorist Hunter: 
The Extraordinary Story of a Woman Who Went Undercover to 
Infiltrate the Radical Islamic Groups Operating in America.'' 
And following her testimony, in fact following the testimony of 
all of our witnesses, we will show a short video that she has 
assembled that includes some of the information that is on 
these sites. I thought that would be useful for our members and 
also for the audience that is physically here or watching on 
television. And, let me say, parental discretion is advised.
    Our third witness, Parry Aftab, is an Internet attorney and 
was one of the first lawyers to practice Internet law shortly 
after the creation of the World Wide Web. Ms. Aftab founded 
America Online's Legal Discussions, as well as the Court TV Law 
Center's Legal Help Line, providing legal information and 
education to thousands of lawyers, consumers worldwide. Ms. 
Aftab previously served as head of the U.S. National Action 
Committee, UNESCO's Internet Safety Project and the World Wide 
Internet Society's Societal Steering Committee. Her book for 
parents about online safety has been adapted for worldwide use 
and has been translated into several languages. She has also 
worked with law enforcement agencies worldwide in the areas of 
cyber crime prevention, cyber terrorism, law enforcement and 
security matters.
    Our fourth and final witness, Mark Weitzman, is the 
Director of the Task Force Against Hate and Terrorism with the 
Simon Weisenthal Center, and the chief representative of the 
Center to the United Nations in New York. Mr. Weitzman was also 
the founding director of the Center's New York Tolerance 
Center, and is a recognized expert in the fields of extremism 
and cyber hate. He has lectured and worked with various groups 
ranging from Congress, the U.N., the EU and U.S. Embassy in 
Berlin, to the U.S. Army and the FBI. He has also chaired the 
Working Group on Internet and Media Issues at the Global Forum 
on Anti-Semiticism that was convened by the Israeli Government 
in February 2007. The task force coordinates the Center's 
research and activities on extremism, intergroup relations, the 
Internet and hate crimes.
    Without objection, the witnesses' full statements will be 
inserted in the record, and I would ask each of you to 
summarize your statement in 5 minutes or less. There is a clock 
that I am quite certain is visible to you, and it will start 
blinking as you near the end of your 5 minutes.
    Ms. Harman. We will start with Dr. Hoffman.

  STATEMENT OF BRUCE HOFFMAN, PROFESSOR, GEORGETOWN UNIVERSITY

    Mr. Hoffman. Thank you, Madam Chairwoman, and members of 
the committee, for the opportunity to testify before you on 
this important issue today.
    Terrorism has long been understood to be a violent means of 
communication. The terrorist act itself is thus deliberately 
designed to attract attention and then, through the publicity 
that it generates, to communicate a message. But communication 
is essential for a terrorist movement, not just to summon 
publicity and attention but also to promote its longevity and 
ensure its very survival.
    Without an effective communication strategy, a terrorist 
movement would be unable to assure a continued flow of new 
recruits into its ranks, motivate and inspire existing members, 
as well as expand the pool of active supporters and passive 
sympathizers from which terrorism also draws its sustenance.
    Given this constellation of requisite sustainable 
resources, it is not surprising that terrorists today devote so 
much time and energy to their communications; that they have 
fastened on the Internet as an especially efficacious vehicle 
for this purpose, given its fundamental characteristics of 
rapidity, ubiquity and cost-effectiveness, is not surprising, 
either.
    Today, virtually every terrorist group in the world has its 
own Internet Web site and, in many instances, maintains 
multiple sites in different languages with different messages 
tailored to specific audiences. Accordingly, today there are in 
excess of 5,000 terrorist and insurgent Internet sites 
worldwide. The ability to communicate in real-time via the 
Internet has enabled terrorists to reach a potentially vast 
audience faster, more pervasively, and more effectively than 
ever before.
    The implications of this development have been enormous. 
The Internet, once seen as an engine of education and 
enlightenment, has instead become an immensely useful vehicle 
for terrorists to pedal their baseless propaganda and manifold 
conspiracy theories, as well as summon their would-be and 
actual followers to violence.
    These sites alarmingly present an increasingly compelling 
and indeed accepted alternative point of view, a parallel 
reality that is presented to the terrorists' variegated 
audiences. Indeed, the Internet's power to radicalize, to 
motivate, inspire, animate and impel radicals to violence has 
already been repeatedly demonstrated in the United States, 
Europe, the Middle East and Asia.
    The process of radicalization, abetted, facilitated and 
encouraged by the Internet, however, is only one side of a coin 
that critically also involves terrorism subversion. Consider 
what we have learned about the foiled August 2006 plot to 
simultaneously bomb ten U.S. airliners and crash them into 
targets over American cities. This plot, derailed after arrests 
in Pakistan, once more led U.S. and U.K. officials to yet 
another terrorist cell of British Muslims of Pakistani 
heritage. The operation's controller was none other than Abu 
Ubayadah al-Masri, the commander for al-Qa'ida in Kunar 
Province, Afghanistan.
    Al-Qa'ida may thus be compared to the archetypal shark in 
the water that must constantly keep moving forward, no matter 
how slowly or incrementally, or die. In al-Qa'ida's context, 
this means adapting and adjusting to even our most 
consequential countermeasures, while simultaneously searching 
to identify new targets and new vulnerabilities, and continuing 
to replenish its ranks with new recruits as well as 
sympathizers and supporters.
    In sum, al'Qa'ida's capacity to continue to prosecute this 
struggle is a direct reflection of both the movement's 
resiliency and the continued resonance of its ideology and the 
effectiveness of its communications.
    Today, Washington has no such program in the war on 
terrorism to counter effectively these communications and 
propaganda. America's counterterrorism strategy continues to 
assume that America's enemies, be they al-Qa'ida or the 
insurgents in Iraq, have a traditional center of gravity. It 
also assumes that these enemies simply need to be killed or 
imprisoned so that global terrorism or the Iraqi insurgency 
will both end. Accordingly, the attention of the U.S. military 
and intelligence community is directed almost uniformly towards 
hunting down militant leaders or protecting U.S. Forces, not 
toward understanding the enemy we now face. This is a 
monumental failing, not only because decapitation strategies 
have rarely worked in countering mass mobilization of terrorist 
or insurgent campaigns, but also because al-Qa'ida's ability to 
continue this struggle is ineluctably predicated on its ability 
to attract new recruits and replenish its resources. The 
success of U.S. strategy will therefore ultimately depend on 
our ability to counter al-Qa'ida's ideological appeal and thus 
address the three key elements of al-Qa'ida's strategy: the 
continued resonance of their message; their continued ability 
to attract recruits to replenish their ranks; and their 
stubborn capacity for continual regeneration and renewal.
    To do so, we first need to better understand the mindset 
minutia of the al-Qa'ida movement, the animosity and the 
arguments that underpin it, and indeed the regions of the world 
from which its struggle emanated and upon which its hungry gaze 
still rests. Without knowing our enemy, we cannot successfully 
penetrate their cells, we cannot knowledgeably sow discord and 
dissension in their ranks, and thus weaken them from within. We 
cannot effectively counter their propaganda and messages of 
hate and their clarion calls to violence. And we cannot fulfill 
the most basic requirements of an effective counterterrorism 
strategy, preempting and preventing terrorist operations and 
deterring their attacks.
    Until we recognize the importance of this vital 
prerequisite, America will remain perennially on the defensive, 
inherently reactive rather than proactive, deprived of the 
capacity to recognize, much less anticipate, important changes 
in our enemy's modus operandi, recruitment and targeting.
    [The statement of Mr. Hoffman follows:]

                  Prepared Statement of Bruce Hoffman

    Terrorism has long been understood to be a violent means of 
communication. The terrorist act itself is thus deliberately designed 
to attract attention and then, through the publicity that it generates, 
to communicate a message. Indeed, nearly a quarter of a century ago, 
Alex Schmid and Janny de Graaf observed that, ``Without communication 
there can be no terrorism. \1\ But communication is essential for a 
terrorist movement not just to summon publicity and attention, but also 
to promote its longevity and ensure its very survival. Without an 
effective communications strategy, a terrorist movement would be unable 
to assure a continued flow of new recruits into its ranks, motivate and 
inspire existing members as well as expand the pool of active 
supporters and passive sympathizers from which terrorism also draws 
sustenance.
---------------------------------------------------------------------------
    \1\ Alex Schmid and Janny de Graaf, Violence As Communication: 
Insurgent Terrorism and the Western News Media (Beverly Hills, CA: 
Sage, 1982), p. 9.
---------------------------------------------------------------------------
    Given this constellation of requisite sustainable resources--
motivated minions, energized recruits, generous supporters and willing 
sympathizers--it is not surprising that terrorists today devote so much 
time and energy to communications. That they have fastened on the 
Internet as an especially efficacious vehicle for this purpose--given 
its rapid (often in real time), pervasive geographical reach, and cost-
effective characteristics--is not surprising either.\2\ As Professor 
Gabriel Weimann of Haifa University notes in his seminal study, Terror 
on the Internet, when he began studying this phenomenon nearly a decade 
ago, there were only about 12 terrorist group web sites. By the time he 
completed his research in 2005, the number had grown to over 4,300--``a 
proliferation rate,'' he explains, ``of about 4,500 percent per year.'' 
\3\ And, by the time the book was published the following year, the 
number had jumped to more than 5,000 terrorist web sites.\4\
---------------------------------------------------------------------------
    \2\ For a more detailed analysis of historical terrorist 
communications strategies and their contemporary use of the Internet 
and other electronic and digital communications means, see Bruce 
Hoffman, Inside Terrorism (NY: Columbia University Press, 2nd edition, 
2006), chapters 6 and 7, pp. 173-228.
    \3\ Gabriel Weimann, Terror on the Internet: The New Arena, the New 
Challenges (Washington, DC: United States Institute of Peace Press, 
2006), p. 105.
    \4\ Remarks by Professor Gabriel Weimann, book launch event held at 
the U.S. Institute of Peace, Washington, D.C. on 17 April 2006.
---------------------------------------------------------------------------
    Thus, virtually every terrorist group in the world today has its 
own Internet website and, in many instances, maintain multiple sites in 
different languages with different messages tailored to specific 
audiences. The ability to communicate in real time via the Internet, 
using a variety of compelling electronic media--including dramatic 
video footage, digital photographs, and audio clips accompanied by 
visually arresting along with savvy and visually appealing web design--
has enabled terrorists to reach a potentially vast audience faster, 
more pervasively and more effectively than ever before.
    The weapons of terrorism today, accordingly, are no longer simply 
the guns and bombs that they always have been, but now include the 
mini-cam and videotape, editing suite and attendant production 
facilities; professionally produced and mass-marketed CD-Roms and DVDs; 
and, most critically, the lap-top and desk-top computers, CD burners 
and e-mail accounts, and Internet and worldwide web. Indeed, largely 
because of the Internet--and the almost unlimited array of 
communications opportunities that it offers--the art of terrorist 
communication has now evolved to a point where terrorists can 
effortlessly and effectively control the communication of their 
ideology of hate, intolerance and violence: determining the content, 
context and medium over which their message is projected; and towards 
precisely the audience (or multiple audiences) they seek to reach.
    The changing face of terrorism in the 21st Century is perhaps best 
exemplified by the items recovered by Saudi security forces in a raid 
during on an al-Qa'ida safe house in Riyadh in late spring 2004. In 
addition to the traditional terrorist arsenal of AK-47 assault rifles, 
explosives, rocket-propelled grenades, hand grenades, and thousands of 
rounds of ammunition that the authorities the police expected find, 
they also discovered an array of electronic consumer goods including: 
video cameras, laptop computers, CD burners, and the requisite high-
speed Internet connection. According to ``60 Minutes'' investigative 
journalist Henry Schuster, the videos
        had been part of an al-Qa'ida media blitz on the Web that also 
        included two online magazines full of editorials and news 
        digests, along with advice on how to handle a kidnapping or 
        field-strip an AK-47 assault rifle. The videos mixed old 
        appearances by bin Laden with slick graphics and suicide 
        bombers' on-camera last wills and testaments. They premiered on 
        the Internet, one after the other, and were aimed at recruiting 
        Saudi youth.\5\
---------------------------------------------------------------------------
    \5\ Henry Shuster, ``Studios of Terror: Al-Qa'ida's Media 
Strategy,'' CNN International.Com, Tracking Terror, 16 February 2005, 
accessed at http://207.25.71.245/2005/WORLD/meast/02/15/
schuster.column/index.html.
---------------------------------------------------------------------------
    As Tina Brown, the doyenne of post-modern media, has pointed out: 
the ``conjunction of 21st-century Internet speed and 12th-century 
fanaticism has turned our world into a tinderbox.'' \6\
---------------------------------------------------------------------------
    \6\ Tina Brown, ``Death by Error,'' Washington Post, 19 May 2005.
---------------------------------------------------------------------------
    The implications of this development have been enormous. The 
Internet, once seen as an engine of education and enlightenment, has 
instead become an immensely useful vehicle for terrorists with which to 
peddle their baseless propaganda and manifold conspiracy theories and 
summon their followers to violence.\7\ These sites alarmingly present 
an increasingly compelling and indeed accepted alternative point of 
view to the terrorists' variegated audiences. This was of course 
precisely al-Qa'ida's purpose in creating its first website, 
www.alneda.com, and maintaining a variety of successor sites ever 
since: to provide an alternative source for news and information that 
the movement itself could exert total control over. Identical 
arguments--claiming distortion and censorship by Western and other 
mainstream media--have also been voiced by sites either created by the 
Iraqi insurgent groups themselves or entities sympathetic to them.\8\ 
In addition, the Internet has become for terrorists a ``virtual'' 
sanctuary to compensate for the loss of their physical sanctuaries and 
continue to provide information on training and instruction in the 
means and methods of planning and executing terrorist attacks. Finally, 
the Internet's power to radicalize--to motivate, inspire, animate, and 
impel radicals to violence has been repeatedly demonstrated in the 
United States, Europe and elsewhere.
---------------------------------------------------------------------------
    \7\ See, for instance, the ``Iraq'' tab at www.kavkazcenter.com and 
the ``Iraqi Resistance Report'' tab at www.jihadunspun.com as well as 
such sites as www.islammemo.cc/taqrer/one--news.asp?Idnew=292; 
www.la7odood.com; www.balagh.com/thaqafa/0604ggpz.htm; and 
www.albasrah.net: all accessed on 6 July 2005. .
    \8\ ``Western Propaganda Media try to shut down albasrah.net! 
[sic],'' the banner on one such site, www.albasrah.net, asserted in 
2005. ``Once again,'' it argued, ``the propaganda media have begun to 
spew stupid accusations against al-Basrah, the true aim of which is to 
smother the voice of Iraqi people and smother one of the few sources of 
information on the unprecedented massacres that are taking place inside 
occupied Iraq in the name of ``international law'.'' www.albasrah.net 
accessed on 6 July 2005.

TERRORISM, RADICALIZATION, AND SUBVERSION
    The process of radicalization--abetted, facilitated and encouraged 
by the Internet--however, is only side of a coin that critically also 
involves terrorist subversion. Consider what we have learned since the 
July 2005 bombings of mass transit in London that killed 52 persons and 
injured more than 700 others. Initially, British authorities believed 
that the attack was the work of disaffected British Muslims, self-
radicalized and self-selected and operating entirely on their own and 
within the United Kingdom only. We have subsequently learned, however, 
that the London cell's ringleader, Mohammed Sidique Khan, and a fellow 
bomber, Shahzad Tanweer, both visited Pakistani jihadi and al-Qa'ida 
terrorist camps between November 2004 and February 2005--and, in fact, 
were trained at al-Qa'ida' Malakand camp in the lawless tribal area 
along the Pakistan-Afghanistan border.\9\
---------------------------------------------------------------------------
    \9\ See Honourable House of Commons, Report of the Official Account 
of the Bombings in London on 7th July 2005, pp. 20-21; and, Robert 
Winnett and David Leppard, ``Leaked No 10 Dossier Reveals Al-Qa'ida's 
British Recruits,'' Sunday Times (London), July 10, 2005.
---------------------------------------------------------------------------
    Both men also recorded ``martyrdom'' videos while in Pakistan that 
were subsequently released in September 2005 and then on the first 
anniversary of the bombings by al-Qa'ida's perennially active 
communications department, ``Al Sahab [the Clouds] for Media 
Production.'' On those tapes, Ayman al Zawahiri also claims credit for 
the London attack in the name of al-Qa'ida: an admission that at the 
time was mostly dismissed given that it challenged the conventional 
wisdom that al-Qa'ida was no longer capable of such operations.
    In addition, following the bombings, when Khan's photograph was a 
staple of nightly British newscasts and on the front page of daily 
newspapers, a reliable source working for Britain's security service 
claimed to have seen Khan at an al-Qa'ida camp in Afghanistan in either 
1999 or 2000.\10\ Finally, a BBC documentary broadcast in July 2006 
reported that during the summer of 2001 Khan was seen trawling 
Britain's Muslim communities for recruits to al-Qa'ida--accompanied by 
two other British Muslims who would later stage a suicide bombing in 
Israel in April 2003. And, only a month before that attack, Khan 
himself visited Israel--taking the same route via Jordan that the 
bombers would soon follow--in what may have been a practice or dry-run 
for the operation.\11\
---------------------------------------------------------------------------
    \10\ See Intelligence and Security Committee, Report into the 
London Terrorist Attacks on 7 July 2005, p. 16.
    \11\ A UK Muslim community leader interviewed in the documentary 
said that he was approached by Mohammed Khan, who was accompanied by 
two other British Muslims named Asif Hanif and Omar Khan Sharif, who in 
2003 would stage a suicide attack on a seaside pub in Tel Aviv, Israel. 
See BBC News Media Exchange, ``Britain's First Suicide Bombers,'' 
``Panorama,'' broadcast on BBC2 on July 11, 2006, 2000 GMT.
---------------------------------------------------------------------------
    The London bombing's pedigree, moreover, is familiar. Exactly a 
year earlier, British and American authorities had thwarted another 
plot by a London-based al-Qa'ida cell to simultaneously carry out 
suicide attacks on the New York Stock Exchange and CitiGroup building 
in Manhattan, the Prudential Center in Newark, New Jersey, and the 
International Monetary Fund and the World Bank headquarters in 
Washington, D.C. The trail in this foiled operation similarly led back 
to Pakistan. It emerged that a proteg of the 9/11 mastermind, Khalid 
Sheikh Mohammed, operating in Lahore was the essential nexus between 
the London cell and al-Qa'ida commanders operating out of Waziristan.
    And, a parallel plot disrupted only months before, in April 2004, 
likewise involved a group of British Muslims of Pakistani ancestry. 
Their plan was to bomb a shopping mall or--exactly like last June's 
botched car bomb attack--a London nightclub using 1,300 pounds of 
ammonium nitrate fertilizer they had stockpiled with which to fabricate 
their explosives. The leader of the cell, Omar Khyam, had also traveled 
to Pakistan for terrorist training at the same al-Qa'ida facility in 
Malakand that two of the July 2005 bombers were trained at. Khyam, 
admitted that while in Pakistan he had met with al-Qa'ida commanders 
and that his al-Qa'ida controller for the operation was Abdul Hadi al-
Iraqi: the then supposed new ``number three'' figure in the movement 
and a key liaison officer with the al-Qa'ida organization in Iraq. 
Khyam's claims were corroborated by another cell member, Mohammed 
Junaid Babar, who became a witness for the prosecution. Babar, a 
naturalized U.S. citizen who had emigrated from Pakistan as a young 
child, himself confessed to having attended an al-Qa'ida ``summit'' 
meeting held in Pakistan in March 2004 that was devoted to planning 
international terrorist operations.
    Finally, the foiled August 2006 plot to simultaneously bomb ten 
U.S. airliners and crash them into targets over American cities was de-
railed after arrests in Pakistan once more led U.K. and U.S. officials 
to yet another terrorist cell of British Muslims of Pakistani heritage. 
That operation's controller was none other than Abu Ubaydah al-Masri: 
the commander for al-Qa'ida in Kunar Province, Afghanistan. Just as 
disturbing is the fact that these attacks were not directed against the 
softer, more accessible targets like subway and commuter trains, hotels 
and tourist destinations that the conventional wisdom held a de-graded 
al-Qa'ida only capable of: but against arguably the most 
internationally-hardened target set since 9/11--commercial aviation. 
This alarming development calls into question some of our most 
fundamental assumptions about al-Qa'ida's capabilities and intentions--
and indeed our ability to deter them--given that the movement continues 
to evidence the same grand homicidal ambitions it demonstrated on 9/11.
    Rather than solely the product of radicalization then, this 
concatenation of plots and attacks actually represents the fruition of 
strategic decisions made by al-Qa'ida a decade ago. As far back as 
1999, British authorities already knew of al-Qa'ida's years-long 
subversive activities among that country's Muslim community: having 
concluded that some 3,000 British Muslims had left and returned to the 
United Kingdom during the latter part of the 1990s after receiving 
terrorist training at al-Qa'ida camps in Afghanistan, Pakistan, Yemen, 
and elsewhere.\12\ The Netherlands' intelligence and security service 
similarly called attention to increased terrorist recruitment efforts 
among assimilated Dutch Muslim youths in its 2002 report to the Dutch 
Parliament. The service detailed the increased terrorist recruitment 
activities among Muslim youth living in the Netherlands whom it was 
previously assumed had been completely assimilated into Dutch society 
and culture.\13\ Thus, representatives of Muslim extremist 
organizations--including, presumably, al-Qa'ida--had succeeded in 
embedding themselves in, and were already in the process of drawing new 
sources of support from, receptive elements within established Diaspora 
communities.
---------------------------------------------------------------------------
    \12\ Robert Winnett and David Leppard, ``Leaked No 10 Dossier 
Reveals Al-Qa'ida's British Recruits,'' Sunday Times (London), July 10, 
2005.
    \13\ See General Intelligence and Security Service, Recruitment for 
the Jihad in the Netherlands: From Incident to Trend (The Hague: 
Ministry of the Interior and Kingdom Relations, December 2002).
---------------------------------------------------------------------------
    In this way, new recruits could be brought into the movement who 
would likely had not previously come under the scrutiny of local or 
national law enforcement agencies. Indeed, according to the 
aforementioned BBC News documentary, Khan, the 2005 London bombing 
cell's ringleader, may have acted precisely as such an al-Qa'ida 
``talent spotter'': trawling Britain's Muslim communities during the 
summer of 2001--literally weeks before 9/11--seeking to attract new 
recruits to the movement.\14\ Finally, senior officials in Spain's 
Interior Ministry and Foreign Ministry have told me that they now 
suspect that prior to 9/11 somewhere between a couple hundred and 
perhaps as many as a thousand Muslims living in Spain similarly were 
recruited to travel overseas to receive training in al-Qa'ida camps 
before returning to Spain. The threat, therefore, is not just of jihadi 
radicalization, but of deliberate, longstanding al-Qa'ida subversion.
---------------------------------------------------------------------------
    \14\ A UK Muslim community leader interviewed in the documentary 
said that he was approached by Mohammed Khan, who was accompanied by 
two other British Muslims named Asif Hanif and Omar Khan Sharif, who in 
2003 would stage a suicide attack on a seaside pub in Tel Aviv, Israel. 
See BBC News Media Exchange, ``Britain's First Suicide Bombers,'' 
broadcast on BBC2 on July 11, 2006, 2000 GMT.
---------------------------------------------------------------------------
    This recruitment of locally radicalized individuals into the ranks 
of al-Qa'ida and other international terrorist organizations has proven 
more difficult for the authorities in these countries to track, predict 
and anticipate. Sir David Pepper, the director of Government 
Communications Headquarters (GCHQ), Britain's equivalent of our 
National Security Agency (NSA) admitted this in testimony before a 
House of Commons committee investigating the 7/7 attacks. ``We had said 
before July [2005], there are probably groups out there that we do not 
know anything about,'' Sir David explained,
        and because we do not know anything about them we do not know 
        how many there are. What happened in July [viz., the 2005 
        London bombings] was a demonstration that there were. . 
        .conspiracies going on about which we essentially knew nothing, 
        and that rather sharpens the perception of how big, if I can 
        use [Secretary of Defense Donald] Rumsfeld's term, the unknown 
        unknown was.\15\
---------------------------------------------------------------------------
    \15\ Quoted in Intelligence and Security Committee, Report into the 
London Terrorist Attacks on 7 July 2005, pp. 30-31.
---------------------------------------------------------------------------
    These recruits have also proven extremely difficult, if not 
impossible, for the authorities to effectively profile.\16\ Although 
the members of such terrorist cells may be marginalized individuals 
working in menial jobs from the lower socio-economic strata of society, 
some with long criminal records or histories of juvenile delinquency; 
others may well come from solidly middle and upper-middle class 
backgrounds with university and perhaps even graduate degrees and prior 
passions for cars, sports, rock music and other completely secular, 
material interests. For example, in the case of radicalized British 
Muslims, since 9/11 we have seen terrorists of South Asian and North 
African descent as well as those hailing both from the Middle East and 
Caribbean. They have included lifelong devout Muslims as well as recent 
converts; persons from the margins of society who made a living as 
thieves or from drug dealing, as well as students from solid middle 
class and upper-middle class backgrounds who had attended such 
distinguished British universities as the London School Economics and 
King's College, London.\17\ What they will have in common is a 
combination of a deep commitment to their faith--sometimes recently 
rediscovered; an admiration of Bin Laden for the cathartic blow struck 
against America on 9/11; a hatred of the United States, the United 
Kingdom and the West; and, a profoundly shared sense of alienation from 
their host countries. These radicalized individuals are thus readily 
manipulated, influenced, exploited and then harnessed by al-Qa'ida 
``talent spotters'' for the execution often of suicide terrorist 
operations. ``There appear to be a number of common features to this 
grooming,'' the report of the Intelligence and Security Committee of 
the House of Commons concluded.
---------------------------------------------------------------------------
    \16\ The report concluded that ``The July attacks emphasized that 
there was no clear profile of a British Islamist terrorist.'' See 
Ibid., p. 29.
    \17\ For instance, in the criminal category are Richard Reid (the 
so-called ``shoe bomber,'' who attempted to blow up an American 
Airlines flight en route from Paris to Miami in December 2001) and 
Jermaine Lindsay (one of the 7/7 London bombers), while Omar Saed 
Sheikh (who orchestrated the kidnapping and murder of Wall Street 
Journal reporter Daniel Pearl in 2002) is a graduate of the LSE and 
Omar Sharif Khan (one of the two British Muslims who carried out a 
suicide bombing attack against a seaside pub in Tel Aviv, Israel in 
April 2003) attended the University of London.
---------------------------------------------------------------------------
        In the early stages, group conversation may be around being a 
        good Muslim and staying away from drugs and crime, with no hint 
        of an extremist agenda. Gradually individuals may be exposed to 
        propaganda about perceived injustices to Muslims across the 
        world with international conflict involving Muslims interpreted 
        as examples of widespread war against Islam; leaders of the 
        Muslim world perceived as corrupt and non-Islamic; with some 
        domestic policies added as `evidence' of a persecuted Islam; 
        and conspiracy theories abounding. They will then move on to 
        what the extremists claim is religious justification for 
        violent jihad in the Quran and the Hadith. . .and--if suicide 
        attacks are the intention--the importance of martyrdom in 
        demonstrating commitment to Islam and the rewards in Paradise 
        for martyrs; before directly inviting an individual to engage 
        in terrorism. There is little evidence of overt compulsion. The 
        extremists appear rather to rely on the development of 
        individual commitment and group bonding and solidarity [my 
        emphasis].\18\
---------------------------------------------------------------------------
    \18\ Honourable House of Commons, Report of the Official Account of 
the Bombings in London on 7th July 2005, pp. 31-32.
---------------------------------------------------------------------------
    These new recruits are the anonymous cogs in the worldwide al-
Qa'ida enterprise and include both longstanding residents and new 
immigrants found across Europe, but specifically in countries with 
large expatriate Muslim populations such as Britain, Spain, France, 
Germany, Italy, the Netherlands, and Belgium.
    Thus, al-Qa'ida's goal remains as it has always been: to inspire 
radicalized Muslims across the globe to join the movement's holy fight. 
Not only does al-Qa'ida retain its core operational and command-and-
control capabilities, it has shown remarkable resiliency and a stubborn 
capacity for renewal and regeneration. Even though its personnel may be 
dispersed, al-Qa'ida remains a hierarchal organization: capable of 
ordering, planning and implementing bold terrorist strikes. This was 
precisely the conclusion reached by Senior British intelligence and 
security officials and publicly stated in October 2006. And, in a 
speech delivered the following month by Dame Eliza Manningham-Buller, 
then director-general of the Security Service (MI-5), she was 
unequivocal in her assessment of the threat posed by al-Qa'ida. ``We 
are aware of numerous plots to kill people and to damage our economy,'' 
Dame Eliza stated. ``What do I mean by numerous? Five? Ten? No, nearer 
30 that we currently know of,'' she continued. ``These plots often have 
linked back to al-Qa'ida in Pakistan and through those links al-Qa'ida 
gives guidance and training to its largely British foot soldiers here 
on an extensive and growing scale.'' \19\ Indeed, al-Qa'ida has been 
involved in virtually every other major terrorist plot unmasked or 
actual attack in the United Kingdom since 2003.\20\
---------------------------------------------------------------------------
    \19\ Quoted in BBC News, ``Extracts from MI5 Chief's Speech,'' 
November 10, 2006 accessed at http://newsvote.bbc.co.uk/mpapps/
pagetools/print/news.bbc.co.uk/2/hl/news/6135000.stm.
    \20\ These include the so-called ``ricin plot'' in January 2003 
involving an Algerian al-Qa'ida operative named Kamal Bourgass and what 
British authorities refer to as ``Operation Crevice'' and ``Operation 
Rhyme,'' as well as this past summer's abortive plot to crash ten U.S. 
airliners into American cities. See Elaine Sciolino and Don Van Natta, 
Jr., ``2004 British Raid Sounded Alert on Pakistani Militants,'' The 
New York Times, July 14, 2005; and idem., ``Europe Confronts Changing 
Face of Terrorism,'' The New York Times, August 1, 2005; Sebastian 
Rotella, ``British Terrorism Case Parallels Others; Trial in a 
suspected plot to bomb a nightclub or mall in 2004 involves alleged 
home-grown Islamic radicals with ties to militants in Pakistan,'' Los 
Angeles Times, September 1, 2006; and BBC News, ``Man Admits UK-US 
Terror Bomb Plot,'' October 12, 2006 accessed at http://
newsvote.bbc.co.uk/mpapps/pagetools/print/news.bbc.co.uk/2/hi/uk--news/
6044.

CONCLUDING REMARKS: A WAY AHEAD?
    Al-Qa'ida may be compared to the archetypal shark in the water that 
must keep moving forward--no matter how slowly or incrementally--or 
die. In al-Qa'ida's context, this means adapting and adjusting to even 
our most consequential countermeasures while simultaneously searching 
to identify new targets and vulnerabilities and continuing to replenish 
its ranks with new recruits as well as sympathizers and supporters. In 
sum, Qa'ida's capacity to continue to prosecute this struggle is also a 
direct reflection of both the movement's resiliency and the continued 
resonance of its ideology and effectiveness of its communications.
    Defeating al-Qa'ida suggests first and foremost that our 
assessments and analyses must be anchored firmly to sound empirical 
judgment and not blinded by conjecture, mirror-imaging, politically 
partisan prisms and wishful thinking. Second is the need to refocus our 
attention and efforts back to South Asia--to Pakistan and Afghanistan, 
specifically--where it was following 9/11 and when al-Qa'ida was indeed 
on the run. Third is the recognition that al-Qa'ida cannot be defeated 
with military means alone. As one U.S. intelligence officer with vast 
experience in this realm told me over two years ago: ``We just don't 
have enough bullets to kill them all.'' Accordingly, a new strategy and 
new approach is needed given a resuscitated al'Qa'ida organization that 
relies as much upon clandestine subversion of targeted communities as 
it does upon propaganda and radicalization. Its success will depend on 
effectively combining the tactical elements of systematically 
destroying and weakening enemy capabilities alongside the equally 
critical, broader strategic imperatives of countering the continued 
resonance of the movement's message and breaking the cycle of terrorist 
recruitment and replenishment that has both sustained and replenished 
al-Qa'ida.
    The war on terrorism has now lasted longer than America's 
involvement in World War II. Yet, even today we cannot claim with any 
credibility, much less, acuity to have fulfilled Sun Tzu's timeless 
admonition.\21\ Indeed, what remains missing six years since this war 
began is a thorough, systematic understanding of our enemy: 
encompassing motivation as well as mindset, decision-making processes 
as well as command-and-control relationships; and ideological 
constructs as well as organizational dynamics.
---------------------------------------------------------------------------
    \21\ I have been making this same argument since I testified on 
this same issue before Congress in 2005. See, for instance, Bruce 
Hoffman, Combating Al-Qa'ida and the Militant Islamic Threat (Santa 
Monica, CA: RAND Corporation, CT-255, 2006, 2005) available at http://
www.rand.org/pubs/testimonies/CT255.
---------------------------------------------------------------------------
    Forty years ago, the United States understood the importance of 
building this foundation in order to effectively counter an enigmatic, 
unseen enemy motivated by a powerful ideology who also used terrorism 
and insurgency to advance his cause and rally popular support. Although 
America, of course, encountered many frustrations during the Vietnam 
conflict, a lack of understanding of our adversary was not among them. 
Indeed, as early as 1965, the Pentagon had begun a program to analyze 
Vietcong morale and motivation based on detailed interviews conducted 
among thousands of guerrilla detainees. These voluminously detailed 
studies provided a roadmap of the ideological and psychological mindset 
of that enemy, clearly illuminating the critical need to win what was 
then often termed the ``other war''--the ideological struggle for the 
hearts and minds of the Vietnamese people.\22\ Even if the fundamental 
changes required in U.S. military strategy to overcome the Vietcong's 
appeal went ignored, tremendous effort and resources were devoted to 
understanding the enemy.
---------------------------------------------------------------------------
    \22\ The RAND Corporation actively contributed to these analyses in 
a series of detailed reports, based on voluminous interviews of 
captured Vietcong. See, for example: Leon Goure, Anthony Russo, and D. 
Scott, Some Findings of the Viet Cong Motivation and Morale Study: 
June--December 1965 (Santa Monica, CA: RAND, RM-4911-12-ISA/ARPA, 
February 1966); Leon Gour, J. M. Carrier, and D. Scott, Some Findings 
of the Viet Cong Motivation and Morale Study: January-June 1966 (Santa 
Monica, CA: RAND, RM-5137-ISA/ARPA, February 1966); J. M. and Charles 
Thomson, Viet Cong Motivation and Morale: The Special Case of Chieu Hoi 
(Santa Monica, CA: RAND, RM-4830-2-ISA/ARPA, May 1966); J. C. Connell, 
Viet Cong Motivation and Morale: A Preliminary Report (Santa Monica, 
CA: RAND, RM-4507/2-ISA, July 1968).
---------------------------------------------------------------------------
    Today, Washington has no such program in the war on terrorism. 
America's counterterrorism strategy continues to assume that America's 
contemporary enemies--be they al-Qa'ida or the insurgents in Iraq--have 
a traditional center of gravity. It also assumes that these enemies 
simply need to be killed or imprisoned so that global terrorism or the 
Iraqi insurgency will both end. Accordingly, the attention of the U.S. 
military and intelligence community is directed almost uniformly 
towards hunting down militant leaders or protecting U.S. forces--not 
toward understanding the enemy we now face. This is a monumental 
failing not only because decapitation strategies have rarely worked in 
countering mass mobilization terrorist or insurgent campaigns, but also 
because al-Qa'ida's ability to continue this struggle is ineluctably 
predicated on its capacity to attract new recruits and replenish its 
resources.
    The success of U.S. strategy will therefore ultimately depend on 
Washington's ability to counter al-Qa'ida's ideological appeal and thus 
effectively address the three key elements of al-Qa'ida's strategy:
        <bullet> the continued resonance of their message;
        <bullet> their continued ability to attract recruits to 
        replenish their ranks; and,
        <bullet> their stubborn capacity for continual regeneration and 
        renewal.
    To do so, we first need to better understand the mindset and 
minutia of the al-Qa'ida movement, the animosity and arguments that 
underpin it and indeed the regions of the world from which its struggle 
emanated and upon which its hungry gaze still rests. Without knowing 
our enemy we cannot successfully penetrate their cells; we cannot 
knowledgeably sow discord and dissension in their ranks and thus weaken 
them from within; we cannot effectively counter their propaganda and 
messages of hate and clarion calls to violence; and, we cannot fulfill 
the most basic requirements of an effective counterterrorist strategy: 
preempting and preventing terrorist operations and deterring their 
attacks. Until we recognize the importance of this vital prerequisite, 
America will remain perennially on the defensive: inherently reactive 
rather than proactive, deprived of the capacity to recognize, much less 
anticipate, important changes in our enemy's modus operandi, 
recruitment and targeting.

    Ms. Harman. Thank you very much.
    Ms. Katz, you are now recognized for 5 minutes.

        STATEMENT OF RITA KATZ, DIRECTOR, SITE INSTITUTE

    Ms. Katz. Thank you, Madam Chair, and all the members of 
this community for allowing me to offer some of my analyses in 
studying the Internet jihadist community.
    Since the war on terror began after 9/11, the United States 
and the West have embarked and campaigned against al-Qa'ida. 
Yet, anyone who reads the front page of the newspaper today can 
see that al-Qa'ida and other jihadist groups are far from 
defeated, and occasionally people from our own society are 
arrested for plotting to carry out domestic attacks.
    Despite being isolated and hunted, the leaders of the 
jihadist groups nevertheless maintain an active dialogue with 
their followers, issuing statements through the Internet to a 
worldwide audience.
    Jihadists continue to hold al-Qa'ida in the highest esteem, 
with localized terrorist groups in Iraq, Egypt, Algeria, 
Somalia, Libya and elsewhere, pledging their allegiance to bin 
Laden and his organization.
    Post 9/11, terrorist bombings in Madrid, London, Bali, 
Istanbul and elsewhere demonstrate that the war on terror is 
not won. It seems, though, as a never ending series of 
terrorist plots and training camps are constantly being broken 
up across the world from China to Canada. Despite very real and 
significant success, dismantling and disrupting terrorists and 
their supporters, the terrorist threat remains and does not 
appear to be shrinking. Jihadist networks have evolved to a 
point where no gun, bomb or assassination can harm them 
permanently.
    One of the primary sources of jihadist resilience is the 
Internet. It is the Internet that enables jihadist networks to 
continue to exist despite the almost unlimited resources that 
the United States has dedicated to the war on terror. Though 
guns, IEDs and other weapons are necessary for terrorists to 
remain dangerous, the Internet is what enables them to 
coordinate, share information, recruit new members and 
propagate their ideology. If we do not treat the Internet as a 
crucial battleground in the war on terror, we will not be able 
to defeat the jihadist threat.
    The virtual jihadist network has replaced al-Qa'ida 
training camps. As someone who lives within the jihadist 
community and spends most of my day with the jihadists, I must 
say that it is easy for me to understand how for a jihadist it 
is one of the most addictive, interactive and informative 
experiences that fulfills the social needs of each and every 
one of them.
    From video games to making bombs to religious 
justifications to friendships, each jihadist feels as he is 
part of a greater connected community. This overwhelming and 
gratifying experience for the jihadist explains why members of 
these online forums are suddenly announced as being dead as a 
result of carrying out a suicide operation in Iraq, Afghanistan 
or elsewhere. The joy and the pleasure the online jihadists 
share in celebrating such a death is stunning.
    Though the online jihadist network has benefited the global 
jihadist movement, at the same time it has provided us with an 
open window into the means and methods by which jihadist groups 
operate today. By studying the various dimensions of the 
virtual jihadist network and then infiltrating them, we can 
learn about our enemy, including their mindset, who they are, 
their location, their ideology, trends and tactics. 
Understanding our enemy will help us to counter their 
propaganda, predict types of future attacks, find them and 
defend ourselves against their methods.
    In my submitted statement, I outlined in detail how the 
online jihadist movement is currently structured, including how 
jihadist groups are organized online, how information is being 
disseminated, how new members are being recruited and how the 
jihadist groups like al-Qa'ida communicate among themselves and 
with their followers all through the Internet.
    As long as the Internet remains a safe haven for jihadists, 
uncontested by the law enforcement agencies, the jihadist 
movement will continue to grow even after its leaders are 
killed. The challenge is to infiltrate and erode this virtual 
network. Studying the online jihadist community empowers us. We 
can listen to what they say, understand the way they think. We 
can better defend ourselves.
    SITE has repeatedly implemented such techniques and was 
able to provide intelligence agencies with information that led 
to apprehension of would-be terrorists and suicide bombers.
    In closing, I hope that you all recognize the importance of 
the Internet. And that is why we are here today. Thank you very 
much.
    [The statement of Ms. Katz follows:]

  Prepared Statement by Rita Katz, Director, SITE Institute, and Josh 
                  Devon, Senior Analyst SITE Institute

The Internet: The Most Vital Tool for Terrorist Networks
    More than six years after 9/11, the United States has done little 
to contest jihadists' use of the internet, arguably one of the most 
crucial tool that enables modern terrorist networks to exist. Jihadists 
use the internet to recruit, coordinate, communicate, raise financing, 
plot attacks, and even as a social network. Yet, after much interaction 
with government officials from several agencies, including the military 
as well as domestic law enforcement, it is clear that while the 
government understands that the internet is being used by jihadists, 
few steps have been made to to study this phenomenon. It is clear by 
the ballooning influence of the internet in fostering a global 
insurgency against the West and its interests, the government lacks a 
full grasp of how jihadists exploit the internet, and even less of an 
idea on how to combat this threat effectively in a coordinated effort.
    Today, there are tens of thousands of members on the half a dozen 
most important and exclusive online password-protected jihadist 
messageboards, and many more in line to take the place of those members 
who have used the internet to pave the way to kill themselves in 
suicide bombings in Iraq, Afghanistan, Somalia, Chechnya, and Lebanon. 
Likewise, as it has become more difficult to travel to current conflict 
areas for military instruction, the internet provides a virtual 
training camp for those members who seek to plan homegrown terrorist 
attacks in the United States and other Western targets. It is the 
internet that enables jihadist groups to foster a global insurgency, 
preparing like-minded individuals all over the world with the necessary 
military, technical, and social skills to produce a dangerous, united 
movement aimed at harming the West and Western interests.
    Though labyrinthine, confusing, and requiring the in-depth study of 
complex social and technical networks, this essential battleground in 
combating the terrorist threat must be considered as important as 
fighting terrorists on the ground. Attempted homegrown terrorist 
attacks on the West have increasingly included an online component, 
whether the assailants were using the internet to coordinate the 
transfer of information, download military manuals, watch jihadist 
videos, or participate on jihadist messageboards. Of course, guns, 
IEDs, and other weapons are necessary for terrorists to maintain their 
relevance and dangerousness, but the internet is what enables jihadists 
to coordinate attacks, share information, recruit new members, and 
propagate their ideology. There is no longer any doubt that the 
internet is the heart of the global jihadist movement.
    The government has attempted to monitor the internet by 
automatically analyzing huge amounts of online traffic through 
computers, which has led to positive results intercepting emails and 
other online communication related to terrorist activity. However, this 
method of data gathering misses crucial intelligence, especially as 
jihadists come up with novel ways to avoid automated detection online, 
and glosses over the critical nuances that comprise the online jihadist 
community, like their demographics, their geography, their ideology, 
and their manner of thinking.
    As the SITE Institute and other private organizations have 
successfully been able to gather actionable intelligence from jihadists 
on the internet, not by using supercomputers but instead by knowing 
where and when to look, after having spent several years infiltrating, 
studying, and analyzing the online jihadist community. As just one 
example, after infiltrating and monitoring an online jihadist internet 
forum used for recruitment, the SITE Institute obtained intelligence 
that members of the forum were soon leaving their countries of 
residence in Europe to engage in suicide operations against coalition 
forces in conflict areas. The SITE Institute first alerted domestic law 
enforcement, who were unaware of the threat, and then contacted law 
enforcement officials in Europe, who determined that the intelligence 
was indeed actionable and promptly detained the individuals. This case, 
and others like it, are representative of how law enforcement agencies, 
in the United States and Europe, are not sufficiently monitoring the 
internet effectively.
    Though necessary, rather than just using software to analyze 
massive flows of data hoping that a jihadist will use a key word like 
``bomb'' in an email, the government also needs to focus its efforts on 
the much more difficult task of studying people to understand our 
enemy. This initiative involves a radical retraining of government 
analysts, who must at the same time be able to interpret and understand 
server logs, PHP, networks of IP addresses, and databases, in addition 
to a deep knowledge of jihadist culture and history, as well as foreign 
languages like Arabic, Turkish, Urdu, and Pashtu. Without the 
combination of these skills, which is what our enemies already possess, 
the United States will not be properly equipped to combat jihadists on 
the internet.
    However, if the U.S. does cultivate these skills, it can deal 
severe blows to the global jihadist community. By effectively studying 
the internet, law enforcement and the military can learn about our 
enemy, including who they are, their location, their ideology, trends 
in tactics, and what training they are receiving. Understanding our 
enemy will help to counter their propaganda, predict types of future 
attacks, find them, and defend ourselves against their methods. Whether 
fighting groups of jihadists in Iraq or self-indoctrinated, homegrown 
terrorists in the United States, focusing on the internet puts law 
enforcement in the best possible position to combat the global jihadist 
threat.
Current Structure of the Online Jihadist Movement
    In order to understand the global jihadist threat, it is necessary 
to review the structure of the online jihadist movement. After 
developing a basic knowledge of how jihadists groups utilize the 
internet, one can see how established jihadist groups like al-Qa'ida 
direct the jihadist movement and can continue to exist despite the 
traditional measures taken against them. Once dissected, the online 
jihadist movement can be infiltrated, analyzed, and countered. The 
following provides an overview of how jihadists uses the internet, how 
information is disseminated and circulated, and how the internet serves 
all the necessary functions jihadist groups need to continue to 
survive.
    At least since the 1990s, Al-Qa'ida and other jihadist groups have 
used the internet to broadcast propaganda and recruit members. After 9/
11 and the resulting destruction of terrorist training camps followed 
by the ensuing decentralization of al-Qa'ida and other jihadist groups, 
the internet became essential to allowing jihadist groups to continue 
to operate effectively. Today, jihadist groups utilize websites, 
messageboards,\1\ e-groups, blogs, instant messaging, and other 
services available through the internet to continue to indoctrinate, 
communicate, recruit, and plan attacks.
---------------------------------------------------------------------------
    \1\ An online messageboard, also called an online forum, allows 
users to communicate and discuss topics easily with each other on the 
same website. Messageboards, which may be password-protected, foster 
the creation of virtual communities and are essential to reinforcing a 
shared global jihadist identify.
---------------------------------------------------------------------------
    While many may perceive that jihadist activity on the internet is 
chaotic, it is in fact very structured. Only a handful of primary 
source jihadist websites distribute the media of the leaders of al-
Qa'ida and other jihadist groups. Through this small number of 
specific, password-protected online forums, the leading jihadist 
groups, like al-Qa'ida, post their communiques and propaganda. By 
keeping the number of primary source jihadist websites small, online 
jihadist ideologues and leaders of jihadist groups can provide a 
transparent mechanism to authenticate communiques. In this way, the 
global jihadist movement can instantly discern the difference between 
official and fake communiques by checking the source of the website and 
the individual who posted it. Though the number of primary source 
forums is small, there are tens of thousands of members registered on 
these websites, giving the jihadists a wide reach.
    Once an official message from a jihadist group is posted to a 
primary source message forum, members of the primary message forum will 
then disseminate that posting to other secondary messageboards. From 
these secondary messageboards, other peripheral individuals will then 
disseminate the information onto other messageboards (See Figure Below)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              issemination of Primary Source Jihadist Data

    Thus, the online jihadist movement has developed in such a way that 
it is at once decentralized but rigidly hierarchical. The jihadists can 
demonstrate that their communiques are authentic by releasing 
information only on the primary websites and then rely on the secondary 
and tertiary websites to disseminate their data to larger groups of 
people.

Al-Fajr Center
    The group that coordinates the online distribution of authentic 
jihadist communiques, such as a video by bin Laden, Zawahiri, and other 
jihadist leaders, is called Al-Fajr Center. Established officially in 
January 2006, Al-Fajr Center is entirely virtual and exists only 
online. The organization serves not only al-Qa'ida but numerous 
jihadist groups who share the same ideology. Besides al-Qa'ida, the 
groups that utilize Al-Fajr Center include several of the Iraqi 
insurgency groups, Palestinian jihadist groups, Al-Qa'ida in the 
Islamic Maghreb (formerly the GSPC), the Libyan Islamic Fighting Group, 
Somali jihadist groups, Saudi jihadist groups, the Taliban and other 
insurgent groups in Afghanistan, and even a group in western China.
    The underlying purpose of Al-Fajr Center is to coordinate 
propaganda efforts through highly centralized and secure channels. This 
enables the groups utilizing al-Fajr to unify strategies, achieve 
economies of scale, and establish trusted channels of communication. 
Through the center's efforts, individuals across the globe are provided 
with easy access to authentic jihadist propaganda coming from a single 
source. This tactic slowly erases the lines between the regional 
terrorist groups, effectively portraying a strong, united group against 
the West. Because of the apparent closeness between al-Qa'ida and the 
other groups using Al-Fajr Center, those indoctrinated by Al-Fajr 
Center will support any jihadist group releasing media through the 
center, not just al-Qa'ida.
    The group's products are eclectic and very frequent, creating a 
stimulating environment for jihadists. Al-Fajr Center distributes 
dozens of daily communiqus from jihadist groups taking credit for 
attacks in Iraq, Afghanistan, Algeria, and elsewhere. In addition to 
these daily communiques, the group also regularly dispatches special 
releases. For example, in November 2006, Al-Fajr released a written 
analysis of the current state of conflict in Afghanistan. The following 
week, the organization released a strategic manual, the ``Technical 
Mujahid,'' devoted to understanding the internet and internet security. 
The very next day, the center was responsible for the release of a 
video provided by a representative of a Somali jihadist group. These 
releases came only days after a video calling for jihad in Xinjiang, 
China, called East Turkistan by the jihadists.
    Al-Fajr Center itself is very structured and is divided into 
several different brigades, each with a designated purpose.
    These brigades include:
        <bullet> Hacking Brigade, in charge of hacking websites, 
        carrying out Denial of Service (DoS) attacks, and identifying 
        vulnerable websites
        <bullet> Intelligence Brigade, in charge of gathering 
        information, both online and in the physical world. For 
        example, this brigade monitors the websites of the government, 
        think tanks, and the media, like the White House, the U.S. 
        Army, the Rand Corporation, the Jamestown foundation, Newsweek, 
        Time Magazine, and others.
        <bullet> Distribution Brigade, in charge of distributing the 
        propaganda released by jihadist groups, such as taking credit 
        for daily attacks, media from jihadist leaders, videos of 
        attacks, training videos, and other videos of fighting from all 
        over the world
        <bullet> Publications Brigade, in charge of producing studies 
        and training manuals in magazine form, like the ``Technical 
        Mujahid''
        <bullet> Cybersecurity Brigade, in charge of protecting the 
        security of jihadist websites
        <bullet> Multimedia Brigade, in charge of producing multimedia 
        jihadist propaganda, including attacks on American forces, 
        preparation of IEDS, audio and video messages from jihadist 
        leadership, statements of martyrs, and other propaganda
    Each of these groups has its own special messageboard which only 
members of each brigade can access. Each brigade contains leaders who 
coordinate their efforts with the jihadist leadership. The costs to run 
these brigades are minimal, as those involved are donating their time 
and effort for their cause. The members of these brigades do their work 
not for any particular jihadist group but for the entire movement. The 
virtual layer between the members of these brigades and the actual 
jihadist groups themselves creates an extremely operationally secure 
mechanism to transmit information.
    While these propaganda efforts are the driving force behind Al-Fajr 
Center, the organization does serve another purpose for jihadist groups 
by providing numerous services for jihadist leaders. Because Al-Fajr 
Center is in communication with representatives of all the major 
jihadist groups, including al-Qa'ida, it can also facilitate the rapid 
transfer of information between jihadist groups and pass on information 
that the center has gathered. In this way, the online representatives 
of jihadist groups can then pass the information on to the leaders of 
there groups via courier, even in the remote areas of the Northwest 
Frontier Province in Pakistan.
    This mechanism may help explain how isolated jihadists like bin 
Laden and Zawahiri can reference extremely current events in the 
propaganda they release. Likewise, the efficiency of Al-Fajr Center may 
also explain how jihadist leaders have been able to release messages 
more frequently than in the past. Reinforcing this trend is that 
jihadist leaders have begun to release their videos online first, 
rather than relying on the al-Jazeera television network, which often 
only shows a small portion of the entire propaganda piece.
    Al-Fajr Center is a powerful tool for jihadist groups because their 
messages can be spread rapidly while retaining their authenticity. As 
the primary outlet for most of the major jihadist groups, Al-Fajr 
Center's operations contribute greatly to fostering a unified, global 
jihadist community. Similarly, the center benefits jihadist groups 
themselves by allowing them to coordinate, share information, and 
consolidate their power to continue to lead the jihadist movement. 
Damaging Al-Fajr Center would prove a severe blow to the jihadist 
groups' ability to gather information, proselytize, and recruit.

From Propaganda Groups to Terrorist Facilitators
    While some may think that propaganda groups like Al-Fajr Center are 
not an immediate threat because they only release propaganda on the 
internet, the reality is that the propaganda groups themselves 
facilitate terrorist activity. A case in point is the Global Islamic 
Media Front (GIMF), one of the oldest and most prominent virtual 
propaganda groups. The GIMF, which also disseminates its propaganda 
through Al-Fajr Center, is just one of many virtual groups who 
contribute propaganda to the online jihadist community. Some groups, 
like GIMF, do not work for any one particular jihadist organization but 
are instead made up of supporters who believe in the jihadist ideology 
and support the general movement. The existence of these groups 
provides the online jihadist with a continuous stream of propaganda, 
never leaving the online jihadist community without movies, documents, 
messages, magazines, training manuals, and even video games, all of 
which are created to indoctrinate others to support the jihadist cause.
    GIMF, which openly supports al-Qa'ida, produces copious amounts of 
propaganda maintains a hidden membership of individuals scattered 
throughout the world. These ardently dedicated individuals produce a 
wide variety of jihadist propaganda in the form of Flash presentations, 
videos,online televisions news, and even video games. One of GIMF's 
most popular video games was titled ``Night of Bush Capturing.'' The 
first-person perspective shooting game, in which the player targets 
American soldiers, President George Bush, Prime Minister Tony Blair, 
and Grand Ayatollah Ali Al-Sistani, was distributed in September 2006 
throughout jihadist message boards and created for ``terrorist 
children.''
    However, GIMF's activities were not limited to propaganda; instead, 
many of its members plotted terrorist attacks themselves, using the 
virtual network they had built to facilitate its actions. In the summer 
of 2007, Mohammad Mahmoud, a leading member of GIMF living in Vienna, 
Austria, worked closely with Jeish al-Islam, the Palestinian jihadist 
group responsible for the kidnapping of BBC journalist Alan Johnston in 
the Gaza Strip. In this case, Mahmoud used his online network to help 
the terrorist group issue statements and parade the powerful symbol of 
a Western hostage.
    Soon, however, Mahmoud took further steps to help others plan 
attacks. Known on the internet as ``Gharib al-Diyar,'' Mahmoud ran the 
German-branch of GIMF, but did not limit himself to propaganda only. In 
2003, he travelled to Iraq to attend a training camp run by Ansar al-
Islam, a jihadist group currently active in Iraq under the name Ansar 
al-Sunnah. After producing a March 2007 GIMF video speech threatening 
attacks in Germany and Austria, Mahmoud composed a rough message 
outlining several physical targets to attack, specifically the Euro 
2008 football championships in Austria and Switzerland, OPEC's Vienna-
based headquarters, as well as UN buildings in Vienna and Geneva.
    In September 2007, officials in Vienna arrested Mahmoud and two of 
his associates, while a coordinated arrest took place outside Montreal, 
Quebec, in which Canadian officials arrested Said Namouh. According to 
a charge sheet filed in Quebec, Namouh conspired with Mahmoud ``for the 
purpose of delivering, placing, discharging or detonating an explosive 
in a place outside Canada.'' Using the name ``Achrafe'' on the 
internet, Namouh was also an important member of GIMF, sending hundreds 
of messages to other members of the group all over the world. Notably, 
the internet enabled Mahmoud to provide Namouh with the alleged support 
to plan a terrorist attack while across the Atlantic Ocean.
    As this example demonstrates, jihadist propaganda groups must also 
be treated as potential terrorist cells. This GIMF case is but one 
example of many other cases where those facilitating propaganda seek to 
support actual attacks. Indeed, instructional manuals produced by 
virtual jihadist groups like GIMF now encourage individual jihadists 
and jihadist groups to train as multi-faceted operators, learning both 
the production and dissemination of media propaganda in addition to the 
technical operations required to carry out attacks. As this trend 
continues, it becomes increasingly dangerous to view individuals 
involved in jihadist propaganda as disconnected from those seeking to 
carry out attacks. It is therefore extremely important that we closely 
monitor virtual jihadist groups, no matter how small, to learn as much 
as we can about them and their activities before they are able to cause 
harm.

The Virtual Jihadist Network
    Jihadist groups use the internet to provide a virtual social 
network to indoctrinate, recruit, and train followers. Because of the 
constant and overwhelming propaganda the jihadists produce, any 
individual, even with no prior association to jihadist ideology, can 
quickly feel like he or she is part of the global jihadist community 
and self-radicalize himself or herself. Once a believer, these self-
radicalized individuals will seek out others who think like them 
online, eventually discovering the primary source jihadist websites run 
by the jihadists themselves. By studying these primary source websites, 
jihadist groups can cull new recruits while exerting much less effort, 
as potential recruits come to them, rather than the opposite.
    In addition, through this virtual jihadist network, jihadist groups 
can indoctrinate individuals and them provide them with the tools they 
need to carry out either individual or small group attacks, without 
having to be specifically recruited by an established jihadist group. 
Jihadists provide strategies and tactics for the entire community so 
that independent terrorist cells can spring up throughout the world. 
From online training manuals, these independent cells can learn which 
are the best targets to attack, how to attack them, and how to make 
sure that the attack will be inline with the overall jihadist strategy.
    The virtual jihadist network revolves around these dimensions:
        <bullet> Recruitment
        <bullet> Propaganda, Indoctrination, and Psychological Warfare
        <bullet> Training and Tactics
        <bullet> Communication and Coordination
        <bullet> Strategy
        <bullet> Financing
    The following will examine each dimension of the virtual social 
network in further detail.

Recruitment
    Recruitment takes on two forms in the online jihadist community. 
The first path is attempting to head to a current theater of conflict 
to fight with the mujahideen. These recruits are sometimes required to 
bring money with them to support the jihad. Though many jihadists 
likely utilize local connections to make their way to the lands of 
jihad, online handlers also exist to aid jihadists wishing to travel to 
an area where they can fight. Mark Robert Walker, a 19-year-old student 
in Laramie, Wyoming, originally from Rochester, New York, pled guilty 
to aiding a terrorist organization in October 2005. Using the screen 
name ``Abdullah,'' Walker was in contact with an online individual 
named ``Khalid'' who had agreed to help Walker leave the United States 
to fight with jihadists in Somalia. The FBI intercepted Walker's online 
communications with ``Khalid'' and arrested Walker at El Paso 
International Airport, as he attempted to leave the country.
    Walker's case is not isolated; many like him exist within the 
online community. These members who desire to travel to lands of jihad 
to fight with the mujahideen are reinforced by the material found on 
the forums. Jihadist messageboards proudly announce when a member of a 
forum has been killed while fighting. On February 6, 2007, the al-
Hesbah jihadist forum carried a message announcing that one of its 
members had carried out a successful suicide attack in Iraq that 
``shook the crusaders'' in Iraq. The individual, an established 
jihadist online figure known by the alias ``Risalah,'' died while 
fighting since the start of 2007. On January 3rd, 2007, Na'im Muhammad 
bin Abdullah, also a member, was announced to have been killed fighting 
U.S. forces in Baghdad. Both were prominent members of the online 
jihadist community. The announcements of their deaths prompted praise 
from other members, reinforcing the strength of the community. This 
praise also paints physical jihad as a natural outgrowth of 
participation in the online forum.
    Al-Hesbah is not the only jihadist forum with members who have left 
to join the jihad. For example, after a Saudi administrator of the 
Hedayah forum \2\ was killed fighting in Iraq in December 2006, one 
member eulogized him, ``In the forum he was special and was a provider. 
. .and there he is today, writing. . .with his blood, not with his 
pen.'' Just traveling to a land of jihad garners praise, as well. In 
December 2006, it was announced that Firas al-Ta'an, a moderator of Al-
Ekhlaas \3\ jihadist forum, had traveled to Iraq and reached the 
mujahideen safely.
---------------------------------------------------------------------------
    \2\ http://www.hedaaya.net
    \3\ http://www.alekhlaas.net/
---------------------------------------------------------------------------
    Rather than travel to where there is active fighting, the other 
path a recruit can take is to engage in a local terrorist plot, where 
no handler is needed. Instead, the training manuals, tactics, and 
strategies available within the online jihadist community take the 
place of a handler. For example, in March 2004, Mohammad Zaki Amawi, a 
US citizen, returned to Ohio after a failed attempt to enter Iraq 
through Jordan to fight against US and coalition forces. Undeterred by 
his inability join an active front, Amawi gather jihadist training 
manuals and videos through jihadist websites to build his own cell in 
Toledo. He soon recruited others local to the area.
    Among the materials Amawi collected from online sources to train 
the cell were a ``Basic Training'' course for jihadists, a prerequisite 
for an ``Advanced Training'' course, videos on the production and use 
of improvised explosive devices (IEDs), and an instructional video for 
building a suicide bomb vest, titled ``Martyrdom Operation Vest 
Preparation.'' One member of the cell, Marwan Othman El-Hindi, proposed 
downloading the videos to show to two of his recruits in Chicago. For 
practice, the cell traveled together to a shooting range in Toledo. 
During this time, Amawi maintained contact with jihadists traveling 
into and out of Iraq using encrypted e-mail messages, contacting them 
for technical assistance.
    These self-starting cells can also span continents. While in 
England, Younis Tsouli, the online jihadist known as Irhabi007, was in 
contact with two men from Atlanta, Georgia, who were providing 
Irhabi007 with surveillance videos of American targets. The men, 
Ehsanul Islam Sadequee and Syed Haris Ahmed, visited Washington, DC, 
and recorded video footage of the U.S Capitol, the Masonic Temple, the 
World Bank, and a fuel depot. Their footage was found amongst 
Irhabi007's belongings.
    This cell, however, also had another component connected through 
the internet. In June 2006, Canadian authorities disrupted the cell in 
Ontario, arresting 17 individuals, including 5 minors. Many members of 
this cell are charged with attempting to blow up targets throughout 
Canada. It was soon revealed that the two Georgian men providing 
support to Irhabi007 had traveled to Canada to meet with members of the 
cell, after having met online. The men from Georgia were also members 
of the same jihadist messageboard as some of the members of an alleged 
cell in Canada.
    Jihadists will continue to utilize the internet to recruit others 
to plan attacks so long as the internet remains a safe haven. 
Recruitment takes place on jihadist forums in many languages, from 
Arabic to German to English. By infiltrating the jihadists' online 
forums, we can better monitor the relationships between online 
jihadists, looking for both those who wish to travel to lands of jihad 
as well as those seeking to do harm locally. Studying messageboards 
allows us to determine which online jihadists participate in the 
recruiting process and enables us to develop countermeasures to act 
against them. Furthermore, identifying the physical locations of online 
jihadists can disrupt actual cells and prevent actual attacks.

Propaganda, Indoctrination, and Psychological Warfare
    The propaganda the jihadists release is powerful and reaches a 
global audience. As one jihadist recalled, ``The first time I saw an 
al-Qa'ida video, I was ready to go. I wanted to kill the 
disbelievers.'' \4\ The propaganda in jihadist videos is compelling, 
convincing, and able to be accessed in a growing number of languages. 
While most primary source propaganda is released in Arabic, individuals 
and groups dedicated to the jihadist cause will translate them into 
their vernacular language, so that the message of jihadist leaders can 
be heard across the world.
---------------------------------------------------------------------------
    \4\ Stewart Bell. ``Making of a Zealot.'' National Post. June 30, 
2006.
---------------------------------------------------------------------------
    Jihadist propaganda is released in English, Turkish, French, 
Somali, Russian, and a host of other languages. Jihadist messageboards 
and websites also exist exclusively in English and other languages as 
well. Even some extremely prominent Arabic jihadist messageboards, like 
the Al-Hesbah \5\ forum, now contain an English section. Because of the 
availability of jihadist propaganda in so many languages, potential 
jihadists can know only their native language and still be radicalized.
---------------------------------------------------------------------------
    \5\ http://www.alhesbah.org
---------------------------------------------------------------------------
    By being able to reach a global audience, jihadist groups can 
continue to indoctrinate many more individuals than they could 
otherwise without a propaganda outlet through the internet. In an 
interview released in December 2005, Zawahiri explicitly discussed al-
Qa'ida's policy of distributing important videos and messages as widely 
as possible. At the conclusion of the 43 minute interview, Zawahiri 
calls upon media organizations to distribute the interview in ``all 
languages and as widely as possible.'' The release of the interview 
itself carried English subtitles and was distributed shortly thereafter 
with French, German, and Italian subtitles on online forums by December 
2005.
    In the last year, al-Qa'ida's production company, As-Sahab, has 
begun to produce English transcripts and subtitles for most of al-
Qa'ida's major releases, especially messages from bin Laden and 
Zawahiri. In the past year, at least 20 videos from As-Sahab have been 
released with either English subtitles or transcripts, broadening the 
group's reach. Al-Qa'ida has also issued videos in English speaking 
directly to Americans. A native Californian wanted by the FBI for his 
role in al-Qa'ida, Adam Gadahn, or Azzam al-Amriki, provides a voice 
directly from the al-Qa'ida leadership in Afghanistan to the American 
people. His September 2006 video, ``An Invitation to Islam,'' carried 
the messages of al-Qa'ida but in an American accent. Gadahn devoted 
much of his 45 minute video to explaining al-Qa'ida's ideology, 
rationale, and motivations.
    While Adam Gadahn speaks to an American audience, al-Qa'ida uses 
the British men who perpetrated the July 7, 2005, bombings in London. 
In commemoration of the bombings, an annual video is released to the 
forums in which one of the bombers discusses his reasons for the attack 
in a thick Yorkshire accent. As with ``An Invitation to Islam,'' each 
of the 7/7 commemoration videos are edited as compilations combining 
clips of al-Qa'ida leadership with a significant portion read by a 
native speaker to the people of the country being addressed.
    The demand for jihadist materials in other languages is high. 
Recently, an influential French jihadist forums, al-Mourabitoune,\6\ 
has begun providing translations of videos and statements of 
responsibility from Arabic into French with very little lag time. For 
example, on May 23, 2006, GIMF released bin Laden's ``A Testimony to 
the Truth'' with both Arabic and English transcripts. By the next day, 
al-Mourabitoune was carrying a French translation of the transcript. 
Following a flood of requests posted to English and French 
messageboards, GIMF provided subtitled editions of Abu Musab al-
Zarqawi's April 26, 2006, video, entitled, ``A Message to the People.'' 
A version of ``A Message to the People'' with French subtitles was soon 
released along with a full French transcript to French-language 
jihadist forums on May 4, 2006.
---------------------------------------------------------------------------
    \6\ http://www.ribaat.org
---------------------------------------------------------------------------
    While many may perceive jihadist propaganda as crude and barbaric, 
replete with beheadings and bombs, much propaganda is instead strongly 
argued rhetoric that is becoming increasingly sophisticated. Jihadist 
ideologues, like Hamid Al-Ali in Kuwait, release masterful pieces of 
religious rhetoric exhorting others to jihad. Many of the white papers, 
studies, books, and other documents that the jihadists release are 
heavily footnoted and maintain a scholarly tone. The result is that the 
propaganda takes on an air of professionalism and scholarship that is 
extremely convincing to critically thinking potential jihadists.
    Oftentimes jihadist ideologues appeal to baser emotional responses 
to violence and sex. Abu Musab al-Zarqawi's filmed beheadings attracted 
an instant audience, and videos are released daily of attacks, gruesome 
shots of dead victims and mujahideen, and other gore. This gore serves 
as powerful psychological warfare, and sensationalized murders, like 
beheadings, intimidate the enemies of the jihadists while bolstering 
jihadist support. On the other hand, the death of mujahideen is 
portrayed as painless, desensitizing many to the fear of participating 
in such violence.
    While not commonly addressed, sometimes sex is exploited to attract 
jihadists. In November 2006, a three and a half minute audio message 
from Hamid Al-Ali, an extremely important jihadist shaykh famous for 
his fatwas and designated a terrorist by the United States, was posted 
to jihadist messageboards explaining the great rewards in heaven 
waiting for those who die in battle. The speaker provides strikingly 
erotic details about the ``wives'' which pleasure martyrs in paradise:
        ``Paradise has eight great gates through which whoever enters 
        will never come out again. Each gate determines what the martyr 
        has achieved; in Paradise they will enjoy endless tasteful food 
        and drinks, with a beloved wife. She will astonish your mind. 
        Her hair is made of silk. Her flirtation appears in the bed as 
        politeness and expertise in these things; she knows all about 
        sexual intercourse. By touching, looking, and hearing, her 
        vagina never complains about how much sex she had. She becomes 
        a beautiful virgin again. The more intercourse she has the more 
        love she gives, and she gives a beautiful smile.'' \7\
---------------------------------------------------------------------------
    \7\ Hamid Al-Ali. ``Description of Martyrs in Paradise.'' Audio 
clip circulated on jihadist forums and posted on Hamid Al-Ali's 
official website at http://www.h-alali.info/snd_open.php?id=b75e9fb4-
f2b5-1029-a701-0010dc91cf69
---------------------------------------------------------------------------
    The amount of propaganda the jihadists produce is staggering. With 
jihadist propaganda widely available in numerous languages, the 
jihadists can reach an extremely large audience. This large reach of 
jihadist propaganda, coupled with the shrewd use of rhetoric, has 
created an online jihadist environment where individuals are capable of 
self-radicalizing themselves with little direct guidance from 
established jihadist groups. So long as this propaganda is not 
countered, jihadists will always have a steady stream of potential 
recruits.

Training and Tactics
    Using the internet, jihadists have created a virtual classroom that 
teaches the online jihadist community how to produce and construct 
weapons ranging from simple IEDs to nuclear, biological, and chemical 
weapons. Not only are jihadists taught military tactics; they also 
learn how to mine the internet for information, protect their anonymity 
online, encrypt the contents of their computers, and use the internet 
to benefit the global jihadist movement. Given the difficulty many 
individuals have in reaching training camps in the post-9/11 world, 
online training gives jihadists the tools they need to plan, 
coordinate, and execute terrorist attacks. Indeed, soldiers from Iraq 
have informed us that training manuals discovered in jihadist safe 
houses in Iraq were printed from the jihadist manuals found online.
    Al-Qa'ida and other jihadist groups have produced magazines and 
multimedia exclusively for training purposes. ``Al-Battar,'' a 
publication of al-Qa'ida in Saudi Arabia, is solely dedicated to 
training prospective mujahideen, even supplying ideal targets. Issues 
have featured weapons discussion, such as using a pistol for sniper 
training, how to hold and target a rocket-propelled grenade (RPG), and 
survival tactics. Even though the most recent issue of ``Al-Battar'' 
was released two years ago, the magazine continues to widely circulate 
online on jihadist websites.
    Excerpts from large compendiums of urban warfare, explosives and 
poisons training manuals are frequently posted to the jihadist forums, 
in addition to members own suggestions, often using photographs and 
video to support their explanations. Videos exist which give training 
instructions for suicide bombings, construction and dismantling of 
landmines, and composition of various explosives substances. Electronic 
books, or e-books, are also used to provide a single resource for 
particular training. For example, an e-book compilation of IED 
construction, camouflage, and placement was distributed to the 
password-protected al-Firdaws \8\ forum, which contains a special 
military section. This publication suggested the planting of explosives 
in shopping bags in markets, butter tubs, flower bouquets, candy boxes, 
briefcases, and buses.
---------------------------------------------------------------------------
    \8\ http://www.alfirdaws.org
---------------------------------------------------------------------------
    In addition to traditional explosives, jihadists are also 
attempting to educate themselves about chemical, biological, 
radiological, and nuclear (CBRN) weapons, which are incessantly 
discussed on jihadist forums. The ``Encyclopedia of Poisons'' offers a 
variety of methods to kill an enemy with a several toxic substances and 
is freely available to any member of the online jihadist community. 
Ricin and botulism bacilli are just two examples of individual poisons 
that have received much attention on jihadist forums. Members on these 
forums detail the speed with which a victim will die when receiving the 
poisons by injection, inhalation, or digestion. Other weapons of mass 
destruction, including nuclear and radiological devices have also been 
the subject of interest and instruction by the jihadists. One author, 
calling himself ``Ozooo'', produced a large compendium offering nuclear 
knowledge among other security, espionage, and military training.
    In addition to physical preparation and military training manuals, 
the jihadists also impart knowledge to each about computer technology. 
Internet anonymity, of primary importance to members to avoid 
surveillance and capture, is frequently addressed. Al-Fajr Center, 
GIMF, and other jihadist media groups release cybersecurity manuals to 
aid the online jihadists. Al-Fajr Center created a specific 
cybersecurity magazine, ``Technical Mujahid,'' which provides 
information remain anonymous online, how to utilize Pretty Good Privacy 
(PGP) software for encrypted communications, and detailed methods for a 
user to hide their sensitive files using a virtual machine. In its 
first pages, the ``Technical Mujahid'' states the jihadist stance 
concerning the virtual battle ground: ``the internet provides a golden 
opportunity. . .for the mujahideen to break the siege placed upon them 
by the media of the crusaders and their followers in the Muslim 
countries, and to use [the internet] for [the sake of] jihad and the 
victory of the faith.'' The GIMF provides similar information and 
recently distributed an encryption program built by the jihadists 
themselves to facilitate anonymous communications.
    Tactical information is rapidly shared on jihadist messageboards. 
They study our analyses, distribute our reports, and quote our 
editorials, searching for our weaknesses. On their own initiative, 
jihadists are constantly providing data to the forums, posting maps of 
suggested targets, locations of American bases throughout the Middle 
East, and distributing aerial photographs captured by the Google Earth 
software, while others pull maps from government and university 
libraries.
    Several primary jihadist websites house areas solely dedicated to 
training. Within these training areas, jihadists are encouraged to 
contribute their own expertise and data, so that all the jihadists can 
benefit from the knowledge of the entire jihadist community. Indeed, 
some of these forums even hold online training seminars, where less 
experienced jihadists can ask questions to jihadist weapons experts and 
receive direct responses online. In this manner, should any jihadist 
have difficulty in successfully manufacturing a bomb, or has a question 
regarding the procurement of required ingredients, there are thousands 
of other members, some with significant experience, who are available 
to provide the desired information.
    By studying the training manuals and tactical material that exist 
on jihadist messageboards, warfighters can understand better the types 
of weapons likely to be used against them as well as the targets that 
jihadists are choosing for attack. Additionally, observing the training 
jihadists receive online will help security officials plan for threats 
discussed on jihadist websites, eliminating some of the guesswork 
involved in imagining the types of attacks jihadists are planning. 
While finding and destroying physical training camps will be essential 
to prevent jihadists from learning how to attack us, jihadists can 
instead rely on the internet for an interactive, comprehensive military 
education.

Online Communication and Coordination
    Due to the efforts of security forces around the world, jihadists 
have an increasingly difficult time communicating and coordinating with 
one another utilizing traditional communication devices that can be 
easily traced, such as cellular or satellite phones. However, the 
internet provides a flexible, instant communication tools for 
jihadists. Whether via email, chat rooms, instant messaging services, 
e-groups, messageboards, websites, or voice over IP (VOIP), jihadists 
can communicate securely with one another rapidly using sophisticated, 
freely available encryption methods.
    Jihadist media groups like GIMF and Al-Fajr Center release programs 
and training manuals to ensure that members of the online jihadist 
community know how to communicate with each other securely, using 
encryption methods like PGP. Groups and individuals desiring to form 
their own cells can therefore coordinate online with each other 
clandestinely below the radar of security officials. Even individuals 
spread across vast geographic areas can communicate with one another 
instantly and securely, forming virtual cells that work together. The 
members of these virtual cells may never meet each other in person but 
can nevertheless aid one another in planning attacks.
    Established jihadist groups like al-Qa'ida can also communicate 
online to discuss everything from strategy to attacks. In one telling 
example, in December 2005, a top jihadist ideologue using the pseudonym 
Louis Attiyah Allah wrote to Abu Musab al-Zarqawi, discussing Zarqawi's 
role in Iraq and its place within the larger jihadist movement. At the 
end of the letter, Attiyah Allah notes to Zarqawi that he can be 
contacted on the ``Ana Al-Muslim'' \9\ jihadist forum, indicating that 
even the top leadership of al-Qa'ida uses the internet to communicate.
---------------------------------------------------------------------------
    \9\ http://www.muslm.net
---------------------------------------------------------------------------
    As one notable example of cross-continental coordination, the 
infamous online jihadist Irhabi007, whose real name is Younis Tsouli, 
was arrested in England in October 2005 and was indicted under the UK's 
Terrorism Act 2000, with charges including ``conspiracy to murder, 
conspiracy to cause an explosion, conspiracy to obtain money by 
deception, fundraising and possession of articles for terrorist 
purposes.'' Tsouli gained fame online for his teaching the global 
jihadist movement hacking and cybersecurity skills while facilitated 
the dissemination of jihadist propaganda coming from jihadist groups in 
Iraq and elsewhere.
    As part of his online activities, Tsouli was also in communication 
with a jihadist cell in the United States. In March 2006, two Americans 
in Atlanta, Georgia, were arrested and eventually charged with 
``material support'' to a terrorist group and are accused of plotting 
to attack oil refineries in the United States. These men, Ehsanul Islam 
Sadequee and Syed Haris Ahmed, visited Washington, DC, in spring 2005 
and recorded video footage of the U.S Capitol, the Masonic Temple, the 
World Bank, and a fuel depot. Remarkably, this footage was also found 
among Tsouli's belongings, indicating that the two American terror 
suspects were indeed in contact with Tsouli and were feeding him 
tactical information via the internet.
    Aside from the obvious means by which small cells can coordinate 
and plan attacks through the internet, the online jihadist community 
has also engaged in coordinated cyberattacks on numerous websites. 
Because the jihadists can freely communicate while online, jihadists 
can designate electronic targets to a widespread audience and establish 
common timetables to launch cyberattacks. The electronic attacks 
usually involve ``Denial of Service'' (DoS) attacks whereby a targeted 
websites is flooded with requests at a single time. For these attacks 
to be successful, numerous individuals must attempt to access a website 
simultaneously.
    Because the internet provides the jihadists a means to advertise 
the timing of a DoS attack to a large number of jihadists in a short 
time, these types of attacks only fail when too few jihadists 
participate in the attack at the same time. Prominent members of the 
jihadist Internet community, such as Irhabi007, have instructed 
jihadists in how to execute DoS attacks, and some groups that have 
announced a planned attack provide the necessary software with the 
address of the target already inputted. This method of attacking the 
enemy allows online jihadists to target Western interests from their 
own home and with little risk.
    The results of these hacking initiatives have resulted in breaches 
of government security. Jihadists have hacked government and military 
websites and have retrieved extremely sensitive information on 
soldiers, including their areas of deployment, their health status, 
their social security numbers, their salary, their bank accounts, and 
other demographic information.
    Jihadist cyberattacks launched on Dutch websites, including those 
belonging to the Dutch government, in January and February 2006 took 
many offline. The DoS operation, results, and images of a dead Theo van 
Gogh, a Dutch filmmaker who was murdered by a jihadist, were included 
in a video distributed shortly celebrating the attack. In another case, 
on November 27, 2006, a message was distributed on jihadist forums 
announcing the ``Electronic Battle of Guantanamo,'' which was to target 
the websites of American stock exchanges and banks. The Department of 
Homeland Security warned about the attack and its danger, and though 
nothing came of the electronic jihadist operation, it fueled the desire 
for additional attacks. Even the Vatican's website was targeted by 
jihadists.
    Retarding the ability of jihadists' to communicate is another 
necessary step in minimizing the jihadist threat. Though governments 
have done well in preventing jihadists from utilizing traditional means 
of communication, the internet remains the best communication device 
for the entire jihadist community. Allowing them to communicate 
instantly over vast distances, virtual cells can form quite easily, and 
coordinating cyberattacks requires a mere posting to a messageboard 
announcing the time and date of such attack.
    While obviously we can never shut down the internet, we can monitor 
jihadists' use of the internet and track down their physical locations. 
Once jihadists learn that the internet is not a safe haven for their 
communications, many will become fearful of utilizing the internet as a 
means to communicate. It is unlikely that we will ever cut jihadist 
communication online to nothing, but at the very least, we can provide 
disincentives to jihadists using the internet by punishing those who 
do.

Strategy
    The strategy behind the jihadist movement is not amorphous. 
Jihadist ideologues have developed a timeframe for their jihad, 
thinking both short-term and long-term, and understanding that success 
will only come after years of struggle. Major jihadist ideologues are 
able to direct the global jihadist movement by releasing white papers 
and books analyzing the situation of the jihadist movement and 
providing the jihadists with long-term strategies to ensure that the 
movement itself always has directions and goals. Jihadist strategies 
are released online and are widely circulated on jihadist forums so 
that the entire jihadist community can follow the same strategies and 
goals, reducing the discord amongst them.
    One of al-Qa'ida's most important strategists subsequent to 9/11 is 
Abu Musab al-Suri, an al-Qa'ida operative who ran terrorist training 
camps in Afghanistan. Al-Suri's publications and studies are highly 
regarded by jihadists and are always housed on primary source jihadist 
websites and others. His 1600-page magnum opus, ``The Global Islamic 
Call to Resistance,'' is an extremely influential jihadist manifesto 
and is available to download in a variety of digital formats. Jihadists 
discuss and analyze Al-Suri's writings both publicly and secretly to 
understand, develop, and expand upon his ideas.
    In ``The Global Islamic Call to Resistance,'' Abu Musab al-Suri 
details his theories of how to best wage jihad in the twenty-first 
century. The scope of the book is very broad, with topics ranging from 
a history of the Islamic world to autobiographical anecdotes about his 
role in the jihadist movement. However, a significant portion of the 
book discusses the most effective strategies for waging jihad against 
the West. Focusing on the types of attacks that will bring the 
mujahideen the most success, al-Suri advocates establishing self-
starting, independent cells in Western countries with no direct 
affiliations to established jihadist groups. These cells operate to 
support the global jihadist movement, rather than any particular 
organization or leader.
    Many of al-Suri's publications reiterate that jihadists must set up 
independent cells within their country of residence, bide their time, 
and only strike when the time is appropriate. Better, al-Suri 
intimates, to wait ten years studying and planning for a large, 
poignant attack rather than carry out a quick suicide bombing at a mall 
in America doing little damage. Al-Suri was arrested late 2005, yet, 
demonstrating the power of the internet, his strategies and theories 
continue to exist in cyberspace. Al-Suri's videotaped lectures at Al-
Ghurabaa training camp in Afghanistan prior to 9/11 have been digitized 
and are available online as well. Whether dead or captured, the 
internet provides jihadists with a virtual immortality.
    Available online, the publications of al-Suri and other ideologues 
share common themes in their strategies. These strategies include:
        <bullet> Utilizing guerilla warfare
        <bullet> Establishing self-starting, independent cells in 
        Western countries with no direct affiliations to established 
        jihadist groups
        <bullet> Damaging the United States' economy through terrorist 
        activities
        <bullet> Attacking Arab governments that work closely with the 
        West
        <bullet> Attacking Western targets in Arab countries.
    These strategies also include specific targets. For example, Al-
Suri organizes the most important targets to attack in America and its 
allies as follows:
        <bullet> Politicians
        <bullet> Major economic targets, like the stock exchange, 
        airports, bridges, metros, tourist attractions
        <bullet> Military bases
        <bullet> Media personalities
        <bullet> Computers and information centers that connect the 
        institutions of the country
        <bullet> Jewish gatherings and notable Jews
        <bullet> The offices of supranational targets, like NATO and 
        the EU
        <bullet> Buildings belonging to the CIA, FBI, and other 
        security institutions
        <bullet> Civilians, while avoiding women and children if 
        possible, to prevent generating negative publicity
    Obviously, these targets are not the only vulnerable individuals 
and institutions in the West. However, by studying and understanding 
the strategy the jihadist ideologues propose, we can better prepare 
ourselves against attacks that independent jihadist cells are likely to 
target. Also, we can develop more effective long-term counterstrategies 
against jihadists once we discern how they plan on expanding the 
jihadist movement. Therefore, the need to study jihadist strategies on 
the internet is paramount; it is an open window showing us how the 
jihadist movement will likely develop in the future.

Financing
    Stemming the flow of money to jihadists is essential. Though 
carrying out terrorist attacks usually requires relative little money, 
jihadists do need funding for weapons, training, distributing 
propaganda, and the costs of hosting internet websites and 
messageboards. Since 9/11, the US, the UN, and other countries have 
worked hard to locate the methods and means by which terrorists 
transfer money. Prior to this crackdown, money was transferred to 
terrorist groups through sham front groups and charities or through 
offshore banking techniques. The US and others had much success in 
identifying the financiers of terrorism and exposing them.
    While these traditional techniques no doubt still play a role in 
terrorist financing, jihadists have also turned to using the internet 
to transmit funds. Online remittance systems and other means of 
transferring money over the internet are constantly being used by 
jihadists to finance the jihadist movement. Jihadist webmasters use 
these electronic means to pay for their servers, and virtual jihadist 
groups have now appeared online soliciting donations from followers.
    The Islamic Army of Iraq, an insurgent group operating within Iraq, 
released a video celebrating its October 15 attack on an American 
ammunition facility in Baghdad. Interestingly, this video ended with a 
plea for donations to be sent to ``The Electronic Nusra Society.'' Two 
days later, the group released the tenth issue of its online magazine, 
``Al-Forsan,'' which contained a full page advertisement seeking 
donations for the ``The Digital Nusra Society.'' Though these 
advertisements offered no physical address to which to send donations, 
they indicated that donors could contact the group electronically for 
further instructions on how to donate.
    Discussions on jihadist messageboards have gone into specific 
detail explaining how jihadists can donate online to jihadist groups. 
On the influential Al-Hesbah online forum, one jihadist described the 
process by which cash can be transferred through online remittance 
services. With certain online remittance services, individuals can add 
money to their online bank accounts by using cash to purchase physical 
cards (similar to phone cards) of various values from designated 
``brick and mortar'' retailers across the world.
    Using such an online bank account, an individual could then 
transfer cash to a jihadist group in the following manner:
        1. The individual wishing to send jihadist groups cash 
        purchases a physical bank card and transfers the value to an 
        intermediary jihadist via an email with the required 
        information to transfer the money.
        2. The intermediary jihadist, in direct contact with the 
        mujahideen, receives the online money transfer and then gives 
        the mujahideen the value of the transfer in cash.
        3. The jihadist groups receiving the cash from the intermediary 
        can use the funds however they like, while the intermediary 
        jihadist who received the initial online money transfer can use 
        that money to purchase online goods.
    As an example, a donor could purchase $100 worth of online virtual 
money from a physical store and then email the value of that money to 
an intermediary jihadist. That intermediary, now $100 richer, will give 
a jihadist group $100 in cash out of his own pocket. The intermediary, 
however, now has $100 worth of virtual money to spend online, while the 
jihadist group now has $100 in cash.
    While this type of remittance is just developing and is only one 
way of transferring money, the chatter surrounding the ways to transfer 
money through the internet has been increasing on jihadist 
messageboards. Discovering and monitoring how jihadists transfer money 
online will enable us to further act against their financing methods, 
as we have done successfully before with traditional remittance 
services. If we are to continue our assault on terrorism financing, 
authorities must devise new ways to monitor and regulate online 
remittance services that can be abused by jihadists.

Conclusions
    The internet remains one of the most valuable tools the jihadists 
have at their disposal, serving all the functions necessary to sustain 
a violent jihadist movement at minimal cost. Through virtual means, 
jihadists have in many ways replaced the training camps of the 1980s 
and 1990s that jihadist groups established in Afghanistan and 
elsewhere. Indoctrination, recruitment, financing, and training 
continue 24 hours a day on jihadist messageboards. A National 
Intelligence Estimate (NIE) Report produced in April 2006 and 
declassified in September 2006 agreed, ``We judge that groups of all 
stripes will increasingly use the Internet to communicate, 
propagandize, recruit, train, and obtain logistical and financial 
support.'' \10\
---------------------------------------------------------------------------
    \10\ http://odni.gov/press_releases/
Declassified_NIE_Key_Judgments.pdf
---------------------------------------------------------------------------
    In recent years, many have realized the extraordinary power that 
jihadists obtain by being able to exploit the internet. However, little 
seems to have been accomplished in preventing jihadists from using the 
internet to their advantage, directly harming our security, both 
domestic and foreign.
    As long as the internet remains an uncontested safe haven for 
jihadists, the jihadist movement will continue to grow, regardless of 
the death or arrest of any jihadist leader or ideologue. The internet 
provides immortality to the ideology behind the jihadist movement, and 
countless individuals can absorb this propaganda, which is readily 
available in numerous languages. While not all individuals exposed to 
jihadist propaganda will succumb to it, the images, sounds, and 
thoughts that the jihadists produce are carefully woven, attractive, 
and compelling. Many will buy into the ideology and become part of the 
online jihadist community. So long as this virtual community exists 
unopposed, jihadist groups will always be able to refill their ranks 
and keep their movement alive, indoctrinating and training their future 
army.
    The challenge now is to infiltrate and erode this virtual network 
to weaken this driving force behind the global jihadist movement. 
Studying the online jihadist community empowers us. We can listen to 
what they say, understand the way they think, and determine how they 
operate. We can grasp their ideology and devise effective counter-
propaganda. We can better defend known targets, identify potential 
threats, devise countermeasures to their tactics, undermine their 
strengths, and exploit their weaknesses. There is a wealth of 
information available online, if we are willing to take the time to 
collect, study, and analyze the data.
    To take advantage of this online intelligence and counter the 
jihadists on the internet, policy makers and authorities should embark 
on the following steps:
        1. Understand how jihadists utilize the internet, including the 
        hierarchy and structure of online jihadist networks, the 
        technical process of distributing the videos, and how jihadists 
        exploit services on the internet.
        2. Effectively monitor jihadist activity on the internet. 
        Because monitoring the entire internet is impossible, 
        understanding the hierarchy of online jihadist networks will 
        help focus efforts on the most important websites and other 
        internet services the jihadists use.
        3. Identify and exploit the weaknesses of the jihadists on the 
        internet.
        4. Mine jihadist activity on the internet for intelligence. By 
        successfully infiltrating the most important jihadist forums, 
        more specific, actionable intelligence can be obtained than 
        simply by monitoring secondary and tertiary jihadist websites. 
        This intelligence can then be used to deal severe blows to the 
        global jihadist movement.
    For as long as jihadists on the internet can engage in terrorist 
activities unfettered and unmonitored, the U.S. will not be able to 
cause significant, lasting damage to the global jihadist movement. The 
internet plays a key role in fostering homegrown radicals, providing 
them with all the information necessary to conduct local attacks as 
well as a location to meet and plan without being detected easily. If 
the global jihadist threat, both domestic and abroad, is to be combated 
effectively, the U.S. must invest significant resources into studying, 
monitoring, and understanding how jihadists utilize and exploit the 
internet.

    Ms. Harman. Thank you very much for that fascinating 
testimony and for the video that we will see in a few minutes.
    I now recognize Ms. Aftab to summarize her statement for 5 
minutes.

          STATEMENT OF PARRY AFTAB, INTERNET ATTORNEY

    Ms. Aftab. Thank you, Madam Chairwoman. You have to forgive 
me, I have laryngitis, which is perhaps a good thing for a 
lawyer to get.
    Madam Chairwoman, Chairman Thompson, ranking member and 
other honored members of the committee, thank you very much for 
inviting me to speak here today. In addition to the credentials 
outlined by Chairwoman Harman, I am the executive director and 
founder of WiredSafety.org. We are the world's largest Internet 
safety and help group. I have 13,000 volunteers in 76 countries 
around the world, and we deal with all aspects of Internet 
privacy, crime and security, especially in connection with 
children.
    What I have to offer today is very interesting because it 
is totally different from everyone else on the panel. I will be 
talking about how the radical groups and homegrown terrorism 
groups can spot vulnerable children and young adults.
    We teach our children to be careful about the information 
they share online. They are now all using MySpace, Facebook, 
Bebo, Pixo, Tagged, innumerable sites like YouTube where they 
are sharing personal information and supplying it to others. 
The same way that they are beating each other up in hallways 
and putting those things on YouTube, we have groups that are 
trying to make themselves look glamorous and to recruit young 
people who are looking for glamour.
    Many of our young people are looking for their 15 megabytes 
of fame. They want other people to look at their video, what 
they have to say. They want to have thousands of friends on 
MySpace. They want people to rank them as a site to go to. They 
want to be seen as influencers. They are looking for someone to 
listen. In doing this, they are able to broadcast their 
vulnerabilities. They are easy pickings for the groups that are 
looking for radical members, and they are recruited at 
different levels. Either they are recruited as manipulated 
innocents, people who have no idea that they are being 
manipulated but are promoting sites and ideologies, ranking 
videos and sending links across the Internet. There are 
supporters that are sort of interested but not really sure why, 
who will bring up the profile in the rankings on MySpace or 
YouTube by hitting it, ranking it, commenting on it in a 
productive way that will bring more traffic. There are 
influencers. A lot of influencers on the Internet have a site 
that people watch. They are the people they turn to. They may 
not be the people they turn to in real life, but for whatever 
reason, they have the panache online that will attract others. 
If the radical groups can reach one of these influencers, even 
if the influencer doesn't buy in, isn't a member, they can 
influence millions upon millions of others who will go where 
they tell them to go online.
    There are sympathetic users, people who comment about how 
they are angry with the United States. A member of their family 
may have been in the Armed Forces and hurt. They are frustrated 
with politics, and they show themselves as potentially 
sympathetic recruits.
    There are vulnerable ones who may have been targeted and 
bullied. They may have felt threatened, and they are looking 
for a safe place.
    There are target group members, members of a religious or 
an ethnic group that are the targets for recruiting for these 
organizations. And all of these things are being put on 
profiles, millions and millions of them, online.
    And there are seekers. We have always found that the issue 
with young people and dangers online is a direct product of 
boredom versus unsupervised time plus bandwidth. So if they 
have a lot of connection and they are all connected on their 
cell phones, interactive gaming devices, and on the Internet 
through Web 2.0 technologies to broadcast their beliefs and 
talk to each other, they are there.
    What do we need to do? We need to make sure that the 
Internet industry, the social networks in particular, are 
working closely with the committee. The commissioners should 
put it together. WiredSafety has worked within them for many 
years and is responsible for privacy settings on MySpace and 
other sites.
    We are creating a new center called Wired Trust that not 
only will advise the industry how to find dangerous content and 
people and movements on their networks, but to police them, to 
report them to law enforcement and to organizations that need 
to do something about it. And if they don't know how to do it, 
we will do it for them. That will launch in the spring to make 
it easier. We will train them how to do it, give them 
technologies to make it easier and spot high traffic sites 
where you know there is something going on, whether it is child 
predators, sexual content or radical groups. Because they 
really are no different. We need to make sure that teachers and 
others understand the difference between truth and 
misinformation and hype, whether it is MartinLutherKing.org as 
really a hate site, or saying that the Holocaust never 
happened, or any of the other sites that make radicalization 
look like a score and will attract young people who are bored 
with technology and money in upper-middle-class neighborhoods, 
kids who never would have been exposed to this otherwise, who 
are not Muslims, who are not normally interested in radical 
groups, who see it as a way to become included, a way to become 
famous, a way to become in, a way to find a place to belong. 
And for that, WiredSafety and all of my 13,000 volunteers and 
myself offer any of our expertise and experience with dealing 
with this for 12 years now to this committee and subcommittee 
and the New York Commission, should you need that.
    [The statement of Ms. Aftab follows:]

                Prepared Statement of Parry Aftab, Esq.

SUMMARY
    Our children and young adults are online. They do their school 
work, entertain themselves, communicate with each other and us, 
research things, shop for things, learn and work, and compare prices 
online. They need the Internet for their education, their careers and 
for their future. Of all the risks our children face online, only one 
is certain. If we deny our children access to these technologies, we 
have guaranteed that they are hurt. All other risks are avoidable 
through a combination of awareness, supervision, trained law 
enforcement investigators and the adoption of best practices and risk 
management by educational institutions and the Internet industry 
itself.
    This testimony will focus on the darker side of the Internet, 
especially Web 2.0 technologies and social networks. I respectfully 
caution this Subcommittee not to consider throwing the Internet out 
with the cyberrisks bathwater. As I have said over and over for the 
last twelve years, all risks can be contained and managed with the 
right combination of analysis of the risks, measurement of their impact 
and evaluation of use of the technologies.
    This requires that we engage the Internet industry itself and 
advise them in ways to build safer technologies and adopt best 
practices designed to make all their users, not just children, safer. 
It also requires that we engage law enforcement agencies in discussions 
with the industry and cybercrime prevention non-profits, such as 
WiredSafety.org, in forming and deploying solutions.

OPENING STATEMENT
    Good afternoon, Chairwoman Harman and other esteemed members of 
this Sub-Committee. I would like to thank this Sub-Committee for 
inviting me to testify today and share my expertise on young people 
online. I will focus my testimony today on how radicalization and 
homegrown terrorism groups can use the Internet to reach at-risk youth 
and recruit followers from the ranks of teens and young adults. I will 
also suggest ways we can address these risks, in particular ways 
Congress can help address them.
    My name is Parry Aftab, and I am an Internet privacy and security 
lawyer and founded and run the world's largest cybersafety and help 
group, WiredSafety.org. I have worked in the field of cyber-risk 
management and cybercrime prevention since the Web was launched in 
1993. I was appointed by UNESCO to head up its online child protection 
initiative in the United States and formed and run a charity that 
contains more than 12,000 volunteers from around the world. 
WiredSafety.org's special group of trained volunteers offer one-to-one 
help to victims of cyberabuse and assist law enforcement, parents, 
schools and communities manage online risks and prevent cybercrimes. We 
see all risks, on all digital technologies for all ages of users on a 
daily basis.
    My testimony will pull from my personal experience, that of the 
charity, our work with law enforcement and regulatory agencies and 
extensive polls of young people. It will focus on how Web 2.0 
technologies and networks are allowing radical groups access to young 
users and the ability to spot more vulnerable and at risk youth for 
recruitment.

Identifying the Problem
    Most of the teens and young adults in the United States are using 
social networks and other Web 2.0 technologies. These include MySpace, 
Facebook, Bebo, Xanga, Google's Blogspot and its new social network--
Orkut, BlackPlanet and MiGente and Hi5, as well as X-Box 360, PSP2, DS, 
World of Warcraft, Runescape and other interactive gaming sites and 
technologies. It has fast become their favorite online activity, after 
instant messaging.
    While accurate statistics of minors' use of social networks do not 
exist (with many lying about their age or identities), statistics as to 
social network traffic and usage of all registered users are regularly 
tracked.. According to HitWise, a leading industry reporter, MySpace 
traffic accounted for almost 5% of all US cybertraffic, with Facebook 
accounting for almost 1% of all cybertraffic during the week of October 
13, 2007. And all social networks in the US combined accounted for 
almost 7% of all online traffic during the same time, up about 20% from 
last year.
    They use it to communicate with others, either existing friends in 
the real world or new ones in the virtual world. They use it to share 
ideas and showcase their talents and interests. They use it to persuade 
others to take action on important issues. They use it to network with 
others and recruit people to their cause or candidate. They use it to 
find other like-minded people or people who are different from them. 
They seek out what others are doing in big cities, affluent 
communities, other countries or next door. They look for love and 
romance and excitement. They search for long-lost friends, kids they 
went to camp with and former classmates. They post pictures and video, 
using their computers, cellphones and iPods. They share secrets and 
vulnerabilities, looking for someone to listen. They exploit the 
secrets and vulnerabilities of others. They lie and steal, learn and 
teach. They promote content, people and causes by tagging and 
commenting and rating profiles and multi-media content. And they pose 
as someone else, or something else to try on new personas or lifesyles. 
They influence and are influenced on these networks. They do it for the 
same reasons young people have always done things. They do it for good, 
for bad, for fun and for kicks.
    While most of the media and governmental investigations have 
focused on the more traditional risks of pornography, Internet sexual 
exploitation, cyberbullying and harassment online, other less obvious 
risks have been largely ignored. These include gangs and hate groups, 
suicide threats, serious eating disorders, scams and fraud, violence, 
misinformation and hype, commercial espionage and warfare and, now, 
radicalization.
    For the same reasons other users are setting up profiles and 
posting videos online, gangs, radical groups and even terrorism groups 
are harnessing the power of the technology and Web 2.0 to spread their 
messages, communicate with others and recruit others ot their cause. 
While that is expected, the surprise comes when we see our young adults 
and teens being receptive to these tactics.
    We are seeing an increase in upper-middle class high school 
students joining inner-city gangs, seeing them as exciting and fun. 
Many young people are searching for leadership or a cause to believe 
in. They are seeking a place where they are accepted and can belong. 
And never before have they had as many to choose from, all at the click 
of their mouse, or from their cellphone or gaming device. And because 
they often do things online that they would never dream of doing in 
real life, they tend to engage in riskier behavior online and often 
don't see the line between observing and joining, between curiosity and 
recruitment. Perceived dangers are seen as exciting. And behind their 
computers, in the privacy of their home, they give the predators the 
information they need to push their buttons. They signal their 
vulnerabilities and what they need and are seeking. They make it easy. 
Too easy for those who are looking for vulnerabilities. Too easy for 
radical groups and homegrown terrorism groups.

Young People on Social Networks and Using Web 2.0 Technologies
    Social networking, a combination of mini-webpages, blogs and 
searchable communities, have expanded in recent years, most recently 
exploding with the growth of MySpace and Facebook. Based upon our 
polls, we estimate that more than half of the young teens in the US 
with home Internet access have at least one social networking profile 
and more than 80% of university students have at least one social 
networking profile.
    Many have 2 to 5 separate profiles on just one site, and most have 
at least one profile on two or more social networks (not all being 
used, however). Most users check their profiles and their online 
networks at least once a week, and in many cases several times a day.
    WiredSafety.org and I first began our social networking safety work 
in 2004, after learning how many young teens and preteens were 
beginning to use them. Unlike the early AOL profile pages used by teens 
and preteens in prior years, where the young users could post their 
contact information and brief statements about their interests, these 
networks were designed to be interactive. And instead of dry posts of 
contact and other personal interest information, these networks allowed 
users to post music, movies, animations, sounds, images and lots of 
user generated content to their page. When used effectively, this 
allowed the sharing of ideas and expertise and communication with real 
life friends. When misused, this allowed the broadcast of 
vulnerabilities that predators of all types can exploit to target young 
people. This is when the real dangers arise.
    While the media and many others have focused only on the dangers of 
these networks when used by preteens and teens, it is important that we 
keep our eye on their good uses and value and why their use has 
exploded in the three years. We have spent four years studying how and 
why preteens, teens and young adults use these kinds of sites.
    Most use them for innocent purposes. They want to find their 
friends and communicate among larger groups than they can do via 
instant messaging. They can post something and know everyone in their 
class or group can read it at the same time. They want to show off 
their creativity and how special they are. And they can pretend to be 
prettier, more popular, richer and more famous than they are in real 
life. They raise money for their favorite charity and awareness for new 
causes.
    They can post one message and their 150 best friends can see it 
right away. Unfortunately, so can those who might not have their best 
interests at heart. And sadly, in some cases, our teens are acting out, 
taking risks and exploring involvement with hate groups, gangs and 
radical groups that promote violence. That's when things can get 
dangerous, especially for young teens.

Professional Guidance for the Industry and Adoption of Best Practices
    Most members of the Web 2.0 industry have set rules for what can 
and cannot be done on their sites. These are set out in their ``terms 
of service'' or ``codes of conduct.'' Most terms of service already 
forbid radicalization (using language about ``promotion of violence''). 
But forbidding it and spotting it are very different. They typically 
rely on reports of terms of service violations (``TOS violations'') to 
enforce their rules. They sometime deploy technology and live 
moderation staff to police their site, independent of the reports.
    For example, MySpace set up an image scanning procedure, looking at 
hundreds of thousands of images each day for sexual content and gang 
signals and hate images. The majority of their policing, however, 
occurs when a user reports another for a TOS violation. This is then 
handled under their existing procedures for that category of violation. 
They are also, according to reports, scanning their system for 
registered sex offenders.
    This is unusual, though, and limited. Only a small protion of 
images posted can be scanned. The traffic is too large for existing 
moderation teams to police effectively. Most networks rely entirely on 
user reports, since video and other multi-media are difficult to filter 
and review for contraband content.
    Social networks, starting with MySpace in early 2005, have come to 
me and to WiredSafety for help in managing risks and creating safer 
experiences for their users. They have sought our help in designing law 
enforcement investigator's guides to assist law enforcement when 
evidence of cybercrimes needs to be obtained from those sites. But 
their needs are greater than what a cybersafety charity can provide. 
They need hands-on training, certifications of practices and 
technologies, enhanced technologies and security practices, guidance on 
adoption of best practices and ways to avoid cyber-abusive and criminal 
behaviors. They need to share effective practices with each other in 
industry leadership councils. They need to anonymously share 
vulnerabilities they have identified to make the industry itself safer, 
without losing competitive advantage. They need to train recruit or 
outsource monitoring and moderation staff, and do it in multiple 
languages.
    Because of our unique experience and over 12 years in this field 
and because managing risks online in a Web 2.0 environment is like 
``herding cats'' the networks and industry has requested that we deploy 
our experience in helping create best practice standards and assist in 
their implementation. In response to this demand, leaders in cybercrime 
and cyber-risk management and security have joined together to form a 
center for the Web 2.0 industry that will train the industry, advise 
the industry and provide tools and expertise to implement best 
practices, and in certain cases, handle moderation and site policing 
for these sites. The center will be called ``The Wired Trust'' and will 
work with the charity, but be a commercial entity designed to serve the 
needs of the Web 2.0 industry and those involved in funding advising 
the industry. Among other risks, The Wired Trust will help manage risks 
of radical groups and terrorism groups using these networks to recruit 
and promote their violent missions.
    Leaders in the industry are already lining up to join The Wired 
Trust and find ways to become safer and prevent risks.
    It's a start.

    Public Policy Solutions, Approaches and Congress's Role
    The solution is not blocking or limiting access to Web 2.0 
technologies or social networks. Creating a new law prohibiting schools 
and libraries from allowing underage students and users to access these 
sites or otherwise locking young people out of these sites seems an 
obvious approach. While this may appear on its face to be an easy 
answer, it is neither easy nor the answer.
    As more social networks are launched every day, and every ISP, 
entertainment company and wireless provider is either building a social 
network or finding a way to integrate social networking and community 
interactivity into their new and existing sites, it is impossible to 
block all of them and not other valuable Internet features, sites and 
content. Instead, schools need to be armed with the tools and risk 
management expertise to decide what sites their students can access 
during school hours from their servers and how to enforce their 
decisions and policies.
    Schools need to decide if their students should have access to any 
non-educational site from school computers, and if so, which ones and 
for what purpose. They then need to develop a policy communicating this 
decision and the rules to the students (in language they understand), 
the teachers, the parents and other caregivers and to their IT team. 
They need to decide whether they will be using software to help enforce 
their policy, or merely traditional discipline for violating school 
policies. That too needs to be communicated to the school community. 
They also need to create or adopt educational programs teaching their 
students what information they can and shouldn't be sharing online, the 
risks of irresponsible Internet use and where to go when things go 
wrong.
    Teaching students about hype and misinformation and about hate and 
radicalization is crucial as well. If young people learn how they are 
manipulated by these groups, they are less likely to fall prey to them. 
At risk youth needs to be supervised, as they are often the earliest 
targets and most likely to join radical groups that promise them 
excitement and community combined. Educational institutions can play an 
important role in teaching their students, parents and other community 
members about safe, private and responsible Internet and wireless 
technologies use. This spans all risks, including radicalization.
    For this to happen effectively, we need better research. We need 
reliable information and studies on which educators and others in risk 
management can base their decisions. They need to be apprised of new 
trends and developing risks. They need to know that websites and 
services are using the latest and best technologies and have adopted 
the best industry practices with their users' safety in mind. They need 
help that Congress can provide by getting behind these research 
initiatives.
    Congress can also be very helpful in helping gather relevant 
information about cybercrimes and abuses. I have testified previously 
that actual cybercrime statistics are lacking. Everything we know is 
largely anecdotal. In 1999, the FBI's Innocent Images (charged with 
investigating crimes against children online) opened 1500 new cases of 
suspects who were attempting to lure a child into an offline meeting 
for the purposes of sex. Based upon my estimates, about the same number 
of cases were opened by state and local law enforcement agencies that 
year. The same year, approximately 25 million minors used the Internet 
in the U.S., Now, with more than 75 million young Internet users in the 
U.S. we don't know if the number of instances have increased, decreased 
or remain flat, given the growth. The crime reporting forms don't 
collect information about the use of the Internet is child sexual 
exploitation crimes, or any other crimes. That has to change.
    Creating a central reporting database where all instances of 
cybercrimes are reported for statistical purposes, from radicalization 
sites and networks, to cyberharassment to Internet-related ID theft, 
fraud and scams, to sexual predators and Internet-related child 
pornography and sexual exploitation would be incredibly helpful. It 
could track cybercrime trends affecting adults, seniors and youth. It 
could be used to help design safer systems and best practices and guide 
legislation directed at a meaningful problem, in a meaningful way. This 
is the kind of centralized reportline that could be managed by the FTC 
or other governmental agencies.
    In addition, with tax dollars becoming more and more precious and 
the mission of all Congressional representatives to put tax dollars 
into the most effective use, existing programs by trusted non-profit 
groups can be highlighted and made available online to schools and 
community organizations that need them, without cost. Without having to 
reinvent the wheel, massive amounts of programs, lesson plans and risks 
management guides already exist that can be used as is, or easily 
retooled. Finding a way to get these wonderful resources into the hands 
of those who need them the most, using interactive technologies and the 
Internet and mobilizing volunteers to help deploy existing programs 
that were developed with or without government dollars. Focusing 
attention on what works and what doesn't is something that Congress 
does best. WiredSafety.org and I pledge our help in doing that.
    It's time. And hopefully, not too late.

    Ms. Harman. Thank you very much. And thank you for coming 
in spite of your laryngitis.
    Mr. Weitzman, you are recognized for 5 minutes. And let me 
inform witnesses and members that we are expecting four votes 
very soon. We will get through the testimony; and then, if the 
votes are called, then we will recess as briefly as possible 
for those votes and come back. I hope that won't inconvenience 
the panel.
    Mr. Weitzman, please summarize your testimony for 5 
minutes.

STATEMENT OF MARK WEITZMAN, DIRECTOR, TASK FORCE AGAINST HATE, 
                    SIMON WIESENTHAL CENTER

    Mr. Weitzman. Thank you, Madam Chair and members of the 
committee, for inviting me to speak to you today on such an 
important topic.
    Let me begin by saying that we have been tracking, the 
Simon Weisenthal Center, instances of Internet extremism going 
back to the mid-1980s when they began as offshoots of U.S. 
extremists, such as Tom Metzger, Louis Beam, David Duke, et 
cetera, in the early bulletin board systems that have 
subsequently expanded.
    One of the things that we have discovered is that some of 
the methods used by both our homegrown extremists as well as 
international extremists are the same. By trying to appeal to a 
closed group, that is create a closed environment, they help 
influence the process of radicalization as has been described 
earlier.
    I am not going to continue by summing up the written 
testimony as much as I would like to demonstrate some of the 
things that we are talking about and the panel has discussed 
already. So we have a short PowerPoint that I would like to 
bring into this as well and illustrate some of the things that 
we have talked about.
    Some of these are conspiracy theories that present a closed 
view of the world, such as blaming 9/11 as part of an outside 
job or a job by outside groups, such as the U.S. Government or 
Jews, et cetera. Some of these are pro-Iraqi insurgency videos. 
Some of them are media portals that people can enter into. The 
ones that you saw earlier with the flags on them, the U.S. 
flags, show that they were based on U.S. servers.
    These, as we keep going through, we can see that these are 
again from al-Qa'ida, but you see the cross of Christianity, 
the Star of David, et cetera, as the symbols being under 
attack.
    And this is just a chart that shows how to attack and break 
up the U.S. Forces in Iraq. And if we keep going through there, 
we will see that, as a matter of fact, the CIA is even 
mentioned by name in it. That is followed by a Taliban document 
Web site, a Taliban chart that deals with how to--
    Ms. Harman. While you are doing this, these are readily 
accessible to our teenagers and young adults?
    Mr. Weitzman. These are readily accessible. There is 
actually nothing to stop them.
    I apologize for the delay. The al-Qa'ida principle of 
jihad, what they talked about electronic jihad and talked about 
literally tracking American and Jewish and secular targets as 
well.
    There is an encyclopedia of jihad available online, showing 
here how to make a car bomb, and it continues as we go through, 
cyanide bombs. You can see for yourself all the way through, 
how to use cell phones as detonators. And this again, 
translated to English, Rules of using or making explosives and 
how to be careful around the explosives, and so on.
    There is a Taliban training manual that I mentioned 
earlier. And you can see again cell phones and other items, 
including RPG, rocket-propelled grenade launchers.
    And if we keep going through, we will see, again, GPS 
systems being used.
    So these are really manuals of how to become a jihadist 
online. The Media Sort Campaign is online, I just went into it 
last night and found items that told you exactly how to train 
to enter a non-Islamist music forum, for example, and to use 
that as a propaganda tool for getting your message across. 
Discussion groups based in the United States as well that bring 
these topics into anyone's home.
    And, finally, these are some Latin American sites that use 
Iranian propaganda word for word and also linked to U.S. 
extremist sites; for example, a U.S. site that talks about 
exiling--has a poll to exile blacks from every Western country 
and claims 100,000 people have voted in favor of exiling 
blacks. That would be the that site.
    And if we keep going through, coming to the next category 
are the category of online games which are used to attract 
children. Some of these games, for example, the game of New 
York Defender, which was originally Russian in origin. Then 
this is an anti-gay game, where you have to kill the gay guy 
before rape. Or, how to be a suicide bomber. Finally, the 
Border Patrol. The object is to shoot as many illegal 
immigrants coming across. Now, obviously, the game is targeted 
to young people, help to inculcate a mindset in them, and to 
change that into a social policy, such as supporting stringent 
controls.
    And then, finally, we end with a site that literally talks 
about the bombing of, ``soon, soon, soon will be the attack on 
Manhattan, dated September 2, 2007.''
    So, I mean, I think, as I said, in some ways, the best way 
to have illustrated the problem along with the written 
testimony was these sites.
    In conclusion, if I could just mention a few very brief 
recommendations. First is that we have to be aware of the 
empowering effect of the Internet on extremists. We must have 
researchers and responders who have both the technical and 
linguistic skills to keep us informed and to be able to respond 
to what is online. We must make users aware of the 
misinformation and the techniques used by extremists. We must 
have increased cooperation internationally among the political, 
law enforcement, NGO, academic and all other interested 
sectors. There must be the political will to legally act when 
necessary.
    We also must be prepared to invest in positive sites--so 
far, we have talked only about negative--but in positive sites 
that can present alternative narratives to that that is being 
constructed by the Islamists. We at the Weisenthal Center have 
made a start in that by creating a site called AskMusa.org, 
which is an attempt to present, in Arabic, Farsi, and other 
languages, views on Jews and Judaism not related to the Middle 
East conflict and directed in a mediated fashion.
    In many ways, we have ceded the Internet to our enemies, 
and the result has been extremely harmful. However, even in a 
globalized world, there is no reason to believe this condition 
is permanent. But we need to focus our efforts better and to 
invest more resources in the struggle. As the famous Holocaust 
survivor, the namesake of our Center, Simon Weisenthal, wrote 
in 1989, ``The combination of hatred and technology is the 
greatest threat facing mankind. How we face that threat might 
well define the world we live in the near future.'' Thank you.
    [The statement of Mr. Weitzman follows:]

                  Prepared Statement of Mark Weitzman

    Good Afternoon. Thank you, Mr. Chairman and Members of the 
Committee, for inviting me to speak to you today on the topic of 
``Using the Web as a Weapon: the Internet as a Tool for Violent 
Radicalization and Homegrown Terrorism.'' My name is Mark Weitzman, and 
I am the Director of the Task Force Against Hate and Terrorism for the 
Simon Wiesenthal Center. I am also the Simon Wiesenthal Center's chief 
representative to the United Nations.
    While I often begin my presentations by saying that we at the Simon 
Wiesenthal Center have been tracking extremism online since 1995, the 
reality is that we actually began much earlier. By 1983 and 1984, 
various domestic extremists such as George Dietz, Tom Metzger and Louis 
Beam were already using the Bulletin Board Systems to post material for 
their followers and others.\1\ The potential that these earliest users 
saw was later realized, leading one United States white supremacist to 
declare a decade later that ``the Internet is our sword.'' \2\
---------------------------------------------------------------------------
    \1\ http://www.publiceye.org/hate/earlybbs.html. Kenneth Stern, A 
Force Upon the Plain, Simon and Schuster, 1996, p. 226.
    \2\ See my article ``The Internet is Our Sword: Aspects of Online 
Anti-Semitism,'' in John Roth and Elisabeth Maxwell, Eds. Remembering 
for the Future: The Holocaust in an Age of Genocide, Vol. I, pp. 911-
925, Palgrave, 2001.
---------------------------------------------------------------------------
    Some, like David Duke, saw the Internet as not only being a 
revolutionary communications medium, but as having great import for 
their own revolutionary ideas. For example, Duke wrote on his website, 
``I believe that the Internet will begin a chain reaction of racial 
enlightenment that will shake the world by the speed of its 
intellectual conquest.'' \3\ Duke's longtime friend, Don Black, 
together with Duke's ex-wife(and Black's future wife), Chloe Hardin 
teamed up to begin Stormfront on March 27, 1995, which is generally 
credited as being the first extremist website, and which today is still 
one of the most prominent and important sites online.\4\
---------------------------------------------------------------------------
    \3\ Ibid.
    \4\ http://www.stormfront.org/dblack/racist_021998.htm.
---------------------------------------------------------------------------
    The Oklahoma City bombing brought domestic extremism into sharper 
focus, and the increasing use by the general public of the Internet 
quickly led more domestic extremists into the electronic age. At that 
time we began to publicly track that growth, and have continued to do 
so. The growth has been explosive, with our database growing from 1 
(Stormfront) at the time of the bombing of the Alfred Murrah building 
on April 19, 1995, to over 7,000 today. Initially, the overwhelming 
number of those sites came from what could be described as Western 
extremists. These included skinhead, neo-Nazi, white power, ethnic and 
religious extremist, homophobic and conspiratorial sites, and the 
numbers showed steady growth, as did the technical capabilities of the 
sites. They were used to recruit, to raise money, to propagandize, to 
incite, and to provide a virtual community to hitherto far-flung fellow 
believers. By doing so, the Internet came to be viewed as empowering a 
whole new generation of extremists.
    The next defining moment was 9/11. The attacks on the United States 
signified a new stage in Internet extremism, with Islamist extremism 
rapidly exploding online. I use the term Islamist in contrast to Islam 
to signify the radical jihadist and extremist ideology. At the time of 
the attacks, there were almost no such sites. Today, they number in the 
thousands.
    As might be expected, in some ways the use of the Internet by 
Islamist extremists resembled the early stages of Western extremist 
use, as they both began at a relatively simple level before moving on 
to more complex usage. However, from the very beginning, the Islamists 
who planned 9/11 were more sophisticated in their approach, using the 
Internet for planning and communication. Of course, part of that can be 
attributed to having the benefit of the growing technical capabilities 
of the Internet, as well as reflecting the growth in cyberknowledge of 
its users.
    The reasons for this phenomenal growth are varied. The Internet is, 
as an early observer wrote ``subversive, because [it] offer[s] 
potential enfranchisement to the disenfranchised and voice to the 
voiceless.'' \5\ It allows individuals who are isolated or alienated, 
both physically and psychologically, to feel that they are linked, 
empowered and members of an international movement. For some young 
Muslims in the West, who are living in an environment where they are 
alienated both from the majority culture and from the traditional 
structures of Muslim life that have broken down in the West, the 
Internet provides access to a radical form of Islam that gives seekers 
the virtual environment that they are searching for. This is seen as a 
purer and uncompromised version of the religion, and thus strengthens 
its appeal by creating a strong demarcation between the moderate 
version and its more extreme manifestation.
---------------------------------------------------------------------------
    \5\ Matthew Friedman, Fuzzy Logic: Dispatches From the Information 
Revolution, Montreal, Vehicule Press, 1998, pp. 82-83, cited in 
Weitzman, above.
---------------------------------------------------------------------------
    Radicalization can be a result of this relationship. The Internet, 
and its idealized and radicalized virtual community, overtakes the 
perceived dismal reality of the real world, and provides an 
authoritative narrative that creates its own reality. This reality is 
constructed to fill a void, and its prime target is youth, especially 
those alienated in some way from their surroundings. The use of 
professional, slick and appealing sites, videos, chat rooms, 
newsgroups, etc., are all forms of communication that are commonly used 
by younger users who are prepared to take the information they receive 
at face value.
    This points out another important aspect of the Internet. As Ian 
Buruma has written, ``The Internet. . .lacks a superego that filters 
out the monster from the depths.'' \6\ This means that there is no 
editorial control, and anyone can present himself or herself as the 
expert, or the authoritative face of a religion. In this case, because 
of the social and psychological factors described above, Islam is 
presented as a pure and moral religion under continuous assault from 
the corrupt, immoral West, especially embodied by Israel and the United 
States. This narrative is illustrated online by references and visuals 
from areas of conflict, all carefully edited to fit into various 
aspects of the narrative (Islam as victim, Islam victorious, etc.).
---------------------------------------------------------------------------
    \6\ Buruma, ``China in Cyberspace,'' New York Review of Books, Nov. 
4, 1999, p. 9, cited in Weitzman above.
---------------------------------------------------------------------------
    This trend was summarized by an Arab Human Rights website that 
wrote, ``Starting from a few years ago, observers have noticed a 
growing religious trend in Arabic web pages: The majority of Arabic 
language web pages are either about Islam, as interpreted by those 
responsible for the websites, or are calling for the spread of Islam. . 
. .'' The majority of Islamic web pages all call for the adoption of 
the extremist Sunni interpretation that has spread widely in the Arab 
Gulf area and extended to reach other Arab states, non-Arab Islamic 
states like Afghanistan and Pakistan, as well as Muslims living in 
Europe and North America. . . . In spite of the fact that many of these 
Islamic web pages preach religious hatred against non-Muslims and even 
against other Islamic groups, they have managed to slip past the bans 
and the filters put in place by Arab states. Many Arab governments 
practice selective censorship; that they permit the continued existence 
of these Islamic sites is less a result of a respect for the freedom of 
expression than it is a reflection of their satisfaction with the 
content of these websites.'' \7\
---------------------------------------------------------------------------
    \7\ ``The Internet in the Arab World: A New Space of Repression? '' 
The Arabic Network for Human Rights Information, http://www.hrinfo.net/
en/reports/net2004/all.shtml#14. The report claims that there was a 
decrease in these sites after 9/11, an assertion that seems to be at 
odds with all other researchers' findings.
---------------------------------------------------------------------------
    In many ways the Internet favors the religious extremist. It allows 
anyone to set himself or herself up as an authority figure, to the 
extent that reports last year indicate that some lesser-known Muslim 
leaders had overtaken Osama bin Laden as the leading figure in the 
jihadist movement.\8\ They did this by using the chat rooms and online 
forums to establish their authority, and while some might react by 
saying that anything that cuts into the influence of bin Laden is good, 
the reality is that this means that even the removal of bin Laden or 
Ayman al-Zawahri would have no impact in threatening the movement. And, 
since one of the effects of this online communication is that the more 
radical posters are the ones to stand out, and so the discourse is 
often ratcheted up, with the result being an even more militant or 
radicalized leadership and followers.
---------------------------------------------------------------------------
    \8\ ``Qa'ida Leaders Losing Sway Over Militants, Study Finds,'' New 
York Times, Nov. 15, 2006.
---------------------------------------------------------------------------
    The growing sophistication of the Islamists is also apparent in the 
production values of their sites. Whether it is in the use of different 
media, such as videos and games, or different languages, the Islamist 
outreach is much more attractive and accessible. Part of this can be 
attributed to Arabic sites and organizations that have recognized the 
need to reach a large audience, but part of it is also the result of 
Western Muslim extremists, some of whom are converts, who have taken 
the familiarity they have acquired by living in the electronic society 
as well as taken advantage of the rights granted to them by those 
societies, to create and post Islamist and jihadist websites. By 
literally speaking the language of their targets, they represent a 
significant growing factor in online Islamist extremism.\9\
---------------------------------------------------------------------------
    \9\ Home grown Web site funnels Islam's extremist views to world, 
New York Times, Oct. 15, 2007.
---------------------------------------------------------------------------
    To illustrate the trends described above, we have put together a 
short PowerPoint demonstration. Without going into deep detail in these 
written remarks, I would like to offer some brief descriptions of the 
material that will be shown. The presentation begins with a look at how 
9/11 is viewed in some eyes online, including those who applauded it as 
well as some conspiracies sites. The presence of the conspiracy site is 
significant, since so much of what passes as fact online is actually 
based on some form of conspiracy. These are often built around the 
Protocols of the Elders of Zion, which allege Jewish control of the 
world, or around presenting the United States government as being 
engaged in various conspiracies or cover-ups, or ultimately having the 
entire Western world engaged in a vast, multi-layered conspiracy 
against the Islamic world.\10\
---------------------------------------------------------------------------
    \10\ On the Protocols, see Steven L Jacobs and Mark Weitzman, 
Dismantling the Big Lie, Ktav, Hoboken, 2003, pp. 1-7.
---------------------------------------------------------------------------
    Next is a series of sites of media portals which show some of the 
varied methods that the Islamists use to get their message out, 
including some based on United States servers. These are followed by 
some looks at charts and other manuals on how to use violence, along 
with a novel interpretation of jihad that calls for an ``electronic 
jihad.''
    There are jihad discussion groups and some Islamist sites aimed at 
Latin America (a new target), as well as some links to extremist right-
wing groups like Neo-Nazi, etc. It is worth pointing out that some 
observers have noted the attempts online to bring Islamist and right-
wing extremist groups together, which are often visible in 
cyberspace.\11\
---------------------------------------------------------------------------
    \11\ See George Michael, The Enemy of My Enemy: The Alarming 
Convergence of Militant Islam and the Extreme Right, University of 
Kansas Press, 2006, as well as my forthcoming article, ``The 
Globalization of Anti-Semitism and Holocaust Denial,'' which is 
scheduled to appear in the volume, Lying About the Holocaust, edited by 
Robert Wistrich.
---------------------------------------------------------------------------
    Next are a series of games that show some of the different themes 
used by all sorts of extremists, and how they target youth by tapping 
into fears and issues that the extremists attempt to manipulate. 
Finally, I end with a look at how the United States is still 
specifically threatened.

    Conclusions
    The Internet has become as real a battlefield as exists anyplace. 
It provides a haven and an opportunity for Islamist extremists to 
recruit, educate, communicate and bond in a secure, protected 
environment. As a result, in many ways it is the prime factor in the 
radicalization of many of recruits to the jihadi ideology. This factor 
calls for increased attention and efforts to counter the growing 
influence of the Internet in these areas. Some steps that might aid in 
this effort include: \12\
---------------------------------------------------------------------------
    \12\ Most of the following proposals were presented in my remarks 
to the OSCE Expert Meeting on Best Practices in Combating Anti-
Semitism, Berlin, Nov. 20-21, 2006, which can be found in the 
Conference Documentation, p. 92.
---------------------------------------------------------------------------
        (1) We must be aware of the empowering effect of the Internet 
        on extremists.
        (2) We must have researchers and responders who have both the 
        technical and linguistic skills to keep us informed, and to be 
        able to respond to what is online.
        (3) We must make users aware of the misinformation and 
        techniques used by extremists.
        (4) We must have increased cooperation internationally, and 
        among the political, law enforcement, NGO, academic, and all 
        other interested sectors.
        (5) There must be the political will to legally act when 
        necessary.
        (6) We must be prepared to invest in positive sites that can 
        present alternative narratives that might counteract the 
        Islamists material (i.e., the Simon Wiesenthal Center's new 
        AskMusa.com site that presents Jews and Judaism in four major 
        Islamic languages directly to the Muslim public).
        In many ways we have ceded the Internet to our enemies, and the 
        result has been extremely harmful. However, even in a 
        globalized world, there is no reason to believe that this 
        condition is permanent. But we need to focus our efforts 
        better, and to invest more resources in this struggle. As the 
        famous Holocaust survivor, and namesake of our Center, Simon 
        Wiesenthal wrote in 1989, ``The combination of hatred and 
        technology is the greatest threat facing mankind.'')\13\ How we 
        face that threat might well define the world we will live in 
        the near future.
---------------------------------------------------------------------------
    \13\ Simon Wiesenthal, Justice Not Vengeance, Grove Weidenfeld, New 
York, 1989, p. 358.

    Ms. Harman. Thank you very much. And thank you for that set 
of recommendations.
    Since the votes have not been called, I think we will now 
show the video prepared by Ms. Katz. Do you want to say 
anything about this before we tee it up?
    Ms. Katz. No. Just think that this is a small portion that 
people see on a daily basis. This is just a very small sample 
of what you get to see on a daily basis as an individual who 
joins any of these message boards. Thank you.
    [Video played.]
    Ms. Harman. Thank you very much. No votes have been called, 
so we will begin a round of questions. And I will yield myself 
5 minutes. We will then go to Mr. Dent, out of order, at Mr. 
Reichert's request.
    I would like to thank all of you for sharing your expertise 
with us, and note that each of you has brought a very unique 
point of view to this hearing; from Bruce, who has studied this 
question across the board, to Ms. Katz, who has done something 
incredibly unusual, which is to herself infiltrate some of 
these groups, to Ms. Aftab, who focuses on how to prevent all 
of our kids from getting caught up in this, and to Mr. 
Weitzman, who came forth with a series of constructive 
suggestions. Each of you has added enormously to our hearing 
record.
    I am just curious, as a parent, Ms. Aftab, I just would ask 
you, what are the chances, if there is a way to assess this, 
that any of our kids could get caught up in this?
    Ms. Aftab. Madam Chairwoman, the odds are higher than we 
thought because--and I offer some of my teen experts to 
testify. They have testified before Congress before to talk to 
you from their perspective. But so many of our young people are 
looking for a cause. So many of them feel isolated. And it is 
very easy, if they find this online, to be drawn into it.
    When I go to schools--I talk to 10,000 teens and pre-teens 
a month in person. When I go out there, I get questions all the 
time about certain misinformation sites, the 
MartinLutherKing.org site where they come to me and tell me 
things about Martin Luther King that are not true, or question 
the Holocaust. If they are buying that and willing to talk to 
me about that, they are buying these other things as well. My 
last name, Aftab, is Middle Eastern. My father was from Iran, 
so I will sometimes get questions about that as well.
    Our children are vulnerable. They are connected. They are 
connected to, listening to people online more than they are to 
people offline. And I suspect we are going to be seeing even 
more of that as they move forward.
    Ms. Harman. Thank you. And I am going to ask one question 
of Ms. Katz and then call on Mr. Dent, because I know that he 
is on a tight time frame.
    Ms. Katz, thank you for that video. One of the people 
talking in your video was Adam Gadahn, the young man I 
mentioned in my opening remarks, who was radicalized in Orange 
County, California, the son of Jewish parents; who, as I 
understand it, was surfing the Web, got to a mosque and, 
through that mosque, gained the views and the instinct to 
commit violence and now is in Pakistan as the, I guess he would 
be the communications representative of Osama bin Laden. I 
mean, it is a pretty amazing story. Could you address him and 
others that you have seen and just give us a little more color 
about what happens in these groups? You mentioned that becoming 
radicalized in this way is one of the most addictive, 
interactive and informative experiences of the lives of these 
people. That is a truly scary statement.
    Ms. Katz. Very much that is the case basically. You join 
any one of these message boards, and it fulfills all of your 
needs. I mean, I have seen people get married through the 
message boards. And the people never met, but you find what you 
are looking for. The case of Adam Gadahn is really a case that 
he was a teenager when he first went on the Internet, a son of 
a Catholic and a Jew from California, who went on the Internet 
and was recruited, initially was converted because of what he 
saw on the Internet. Eventually, handlers of al-Qa'ida made him 
join al-Qa'ida. And to me, he presents one of the dangerous 
elements that we are facing today as Americans in this society. 
Using individuals like Adam Gadahn, who lived in this country, 
was part of this community, using his own life experience to 
describe how great it is to be part of al-Qa'ida and listening 
to his messages, which are in English, and they are coming 
quite often. Just this year, we had about three messages from 
him, as you could see, with unbelievable quality; messages in 
English. Who is he speaking to? He is speaking to our American 
or let us say English speakers. This is a new phenomena, a new 
trend coming from al-Qa'ida. They don't need Arabic anymore. 
They want the English speakers along with the Arabic speakers. 
But Adam Godahn's video is circulated everywhere on the 
Internet, not only this video, but every video he releases. 
They make sure that it makes it to YouTube and everywhere else 
that people can see. He speaks in English. He provides his own 
stories in his statement about his life in LA and how bad his 
life experience was until he found al-Qa'ida. Now, part of his 
messages are so--using our own words, everything that that man 
keeps on doing against us basically explaining, ``you know, 
being with al-Qa'ida, we are not trying to kill you; all we are 
trying to do is to live at peace; it is you are the terrorists, 
you are trying to''--and to me, as a teenager--and the bottom 
line is you see that a lot of the people we mentioned today who 
were recruited to the Internet or part of the Internet are 
young, are very, very young, and it is easy to influence these 
people, especially when they see someone like Adam Gadahn.
    Ms. Harman. Thank you very much. I now yield for a question 
to Mr. Dent. I would note for members that there are four votes 
on the floor, although this clock does not for some reason 
signal that. And following his question and the answer, we will 
adjourn for these four votes. It should take a maximum of half 
an hour and hopefully less. And I will return, and I hope other 
members will return for additional questions.
    Mr. Dent.
    Mr. Dent. Thank you, Madam Chair. Real quickly. What can we 
do to go on the offensive? In other words, are we doing enough 
to create false Web sites and then try to track people who, 
extremists, who would try to go onto those sites? Are we doing 
any of that? In other words, create some problems for them 
that, knowing if they go on these sites, that they may not be 
authentic and maybe turn the Internet into a less reliable 
source of information. Is there anything we are doing there 
that you are aware of?
    Ms. Katz. I don't think a lot is being done. I don't think 
there is any straight policy, a structure of how you would like 
to see the Internet in 10 years. Al-Qa'ida has their own future 
plans. Now, when you come and you set up a message board, a 
fake message board to attract people--I know that other 
governments have done that, like Jordanians or the Saudis, 
Egyptians, in order to attract people, collect IP addresses, 
gather information. You know, when you are part of al-Qa'ida 
network, it is not that easy to cheat you basically and to send 
you to any of these message boards. In my testimony, I 
literally describe how the online al-Qa'ida message boards are 
set. There is a very clear structure within the password al-
Qa'ida messages that are called the Al-Fajr Center. And you 
know when you go on these message boards that I showed those 
are part of al-Qa'ida.
    Ms. Aftab. There is a way to manipulate popular Web sites 
and profiles. And our government agencies are doing that in 
some respects, moving certain videos up in the ranking and 
lower in the ranking. We are also seeing a lot of other sites 
that are designed to make fun of these sites. And bringing 
humor to it, you are seeing an awful lot of Arabic centric 
humor that is designed to discredit some of this. Some of it, I 
suspect, is being done through governmental agencies. Some of 
it is done through talented teens who think it is funny. In 
addition, a lot of this information is tracked, and that 
information is held, even though it may not be accessed by the 
social networks; YouTube, MySpace, FaceBook, all of them 
collect the IP address of every comment and everything posted 
on those sites and retain it for at least 3 months to turn over 
to law enforcement for valid subpoenas. So there is some of 
this, not enough. We can let our young people know they are 
being manipulated. And through more of that, I suspect we will 
have fewer gone.
    Ms. Harman. Thank you very much. The hearing will be in 
recess for these four votes. Thank you very much.
    [Recess.]
    Ms. Harman. The hearing will reconvene. My apologies to the 
witnesses. There are a series of surprising votes on the floor 
which were not anticipated, the first of which took almost an 
hour. And so I regret that the hearing was disrupted. I am 
hopeful that some other members will be able to get back in 
between votes, as I have. But if not, following my questions, 
we will adjourn if no one else is here. And I apologize for 
that because so many members did want to participate.
    Let me ask you, Dr. Hoffman, you have focused on terrorism 
for 30 years; you have now turned your attention elsewhere. But 
as you reintersect these issues, especially the stories we have 
heard from other witnesses about how people get hooked on these 
Internet sites and how the people who show vulnerabilities on 
sites are preyed upon, how big an issue do you think this is?
    Mr. Hoffman. Well, I am still focusing on it, of course, 
just from an academic respect, but work closely with the 
government. I mean, it is enormous. I think, exactly as you 
heard from the other witnesses, it is enormous in two senses. 
First, it is a very inexpensive means for the terrorists. It is 
very--they can communicate nearly in real time. But I think the 
biggest part of this is twofold: One is that these falsehoods 
and conspiracy theories have now become so ubiquitous and so 
pervasive that they are believed, so you have almost a parallel 
truth. And it has become a very effective tool for recruiting 
people. And the key is that the terrorists now have, in 
essence, they can direct their messages; as I said in my 
testimony, they can tailor it to whichever demographic they are 
attempting to reach. There are terrorist groups that have sites 
in more than 20 languages, for instance. But the key is, behind 
all this radicalization and information, and that is what I 
think sometimes we are at risk in Washington in losing sight 
of, is that there are organizations behind this process. This 
isn't an organic--somebody who is a homegrown terrorist--this 
isn't an organic homegrown process. There are terrorist 
organizations that are actively and deliberately manipulating, 
exploiting and in turn harnessing this radicalization in the 
service of violence, and that is what makes it dangerous.
    Ms. Harman. Let me just interrupt you there. I mean, 
homegrown terror in the sense that this effort grooms homegrown 
terrorists. It is not necessarily spawned by them, but yet it 
finds them and develops them into violent killers; is that 
correct?
    Mr. Hoffman. Yes, absolutely. It is the proliferation. And 
in the study of terrorism, we have never seen a phenomena like 
this in the power of the Internet. It is a vacuum that these 
terrorists and jihadist groups have filled. And as your bill 
proposes and as these hearings are about, we have done, 
unfortunately, lamentably little to push back against.
    Ms. Harman. Well, my thought is, having listened to all of 
you, to make sure that this commission, if it becomes law, and 
I am hopeful that it will, has a major focus on studying this 
phenomena. Does everyone agree that that is a useful thing to 
do? I see you all nodding. Would anyone like to make a comment 
about that?
    Ms. Katz. I would like to.
    Ms. Harman. Yes, Ms. Katz.
    Ms. Katz. Regularly I meet with government agencies from 
all over the world. I have not met any person that really 
understood how this works. And if you don't really know how 
something works, you don't understand how the jihadist operates 
online, you will never be able to counter the phenomena. The 
first and most important step in this counter-terrorism world 
of fighting them over the Internet is to understand how they do 
things. I can tell you from our own experience, just using 
open-source methods, we were able to stop suicide bombers in 
many places in the world where no government agency in the 
United States or elsewhere had the information. And so to me, 
in order to be able to have any kind of progress or know what 
kind of legislation you need to put, you have to understand it. 
And that is why I think that this panel is very important.
    Ms. Harman. And by stopping suicide bombers, you mean 
specific suicide bombers, intervening?
    Ms. Katz. Individuals that were recruited online and 
announce about their time, that arrive to go for their own 
journey. And we alerted--in one case, we actually called 
immediately the FBI, and they said, you know, Rita, we don't 
know how legal it is for us to go and stop something like that. 
I said, look, we have the e-mail account; we have information 
about the individual; let us do something; we don't know where 
he is going to carry out his attack. It was an English message 
board. And we were extremely nervous. They did not do anything. 
We ended up finding the individual in the UK, alerted the 
Scotland Yard. They found him on the plane heading to Pakistan, 
stopped him, brought him back. And I think that what this 
case--it is just one case of many others--illustrates is the 
fact that we had to play the role of law enforcement agencies 
because we are monitoring and doing what is needed to be done 
after studying the Internet instead of having the FBI alerting 
the British authorities about such a plot.
    Ms. Harman. Thank you for that.
    Mr. Weitzman, you were talking about positive messages that 
your organization puts on. I think Mr. Dent, before we 
recessed, was asking what we can do to counter this. Could you 
give us more specific information about what kind of positive 
message you put out there and what effect it has on people?
    Mr. Weitzman. Well, when I say positive message, I mean 
that a message that is basically countering the counter-history 
that Dr. Hoffman just mentioned. These people are constructing 
their own version of reality, full of conspiracy theories, full 
of doctored videos, things that will both recruit or inflame 
emotions. They are presenting a one-sided view of Islam, as 
well as any other religion, as well as many other events in 
world history. So what we talked about doing and what we did 
was created one Web site to sort of counter that and bypass the 
official organs of government and media distribution, and to 
present to Arabic, Farsi, Indonesia, et cetera, people a basic 
history or view of Jews and Judaism that would be presented 
obviously by people who knew the traditions and knew the 
history, did not get into the politics of a Middle East issue, 
but was there to sort of try to begin to counter that. We have 
on the Web site a book that I wrote that is the first 
refutation in English of The Protocols of the Elders of Zion 
that was translated into Arabic and is also available on the 
Web site. The protocols is basically the bedrock, the bible, if 
you will, of all these conspiracy theories. So this is an 
attempt to refute the protocols directly each protocol by 
protocol, and it is now available in Arabic as well. So that is 
an attempt to reach out. We had a meeting in Indonesia as well 
with Waheed, one of the leading Muslim leaders of the world, 
that brought together Jewish, Muslim and Christian leaders in 
an attempt to again bypass the inflamed rhetoric of the Middle 
East that reached the largest Muslim population in the world, 
which is in Southeast Asia, and so on and to try, by doing 
that, to present a more calm, positive message that hopefully 
will get translated into a mass reality.
    Ms. Harman. And how many people hit on that Web site? How 
do you get people to go there?
    Mr. Weitzman. Actually, we had a launch. We had invited 
people from the Arab media. We had a representative of the 
Organization of Arab Countries.
    Ms. Harman. Excuse me just a moment.
    Mr. Weitzman. We launched the Web site in mid-September. 
Since then, we have already had a couple of responses, e-mails, 
that people have written in questions. Some of it is very, what 
we call hate rhetoric, but some of it is just very open 
questioning about the items on there. So this is one of the 
approaches.
    If I can comment as well very quickly, the issue that we 
have in some ways is that we are trying to fight this war with 
the last war's battles, which is very often a pattern that we 
see repeated in history. The Internet, because of its 
globalization, because of all the influences that have been 
mentioned earlier, is something that requires new strategies 
and new approaches. And we are very often looking to the old 
strategies and old approaches for answers.
    And lastly, we have also been for the past decade 
contributing a CD, samples of all the type of material, 
extremist materials, that can be found out, and we have been 
distributing this to law enforcement, including the FBI, 
government officials, and we are happy to continue that type of 
cooperation in the future.
    Ms. Harman. Let me just say, I applaud that. I applaud the 
action that you are taking very much. And I hope you recover 
your voice very soon.
    Ms. Katz, you have done groundbreaking work. It is 
extraordinary what you have done.
    And Dr. Hoffman I am going to continue to count on you 
wherever you may land next. You are someone whose voice is 
very, very important.
    I apologize to all the witnesses. This next vote, the one 
that is current, is a 5-minute vote, and it takes grandma here 
a few minutes to get over there. So with no other members here 
and no real prospect that this floor action is going to calm 
down, I adjourn this hearing. I thank you for participating. 
The hearing is adjourned.
    [Whereupon, at 4:26 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
